<html>
<title> - [H.A.S.C. No. 112-78]NUCLEAR WEAPONS MODERNIZATION IN RUSSIA AND CHINA: UNDERSTANDING IMPACTS TO THE UNITED STATES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 112-78]
 
   NUCLEAR WEAPONS MODERNIZATION IN RUSSIA AND CHINA: UNDERSTANDING 
                      IMPACTS TO THE UNITED STATES

                               __________

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 14, 2011


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     




                  U.S. GOVERNMENT PRINTING OFFICE
71-449                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MICHAEL TURNER, Ohio, Chairman
TRENT FRANKS, Arizona                LORETTA SANCHEZ, California
DOUG LAMBORN, Colorado               JAMES R. LANGEVIN, Rhode Island
MO BROOKS, Alabama                   RICK LARSEN, Washington
MAC THORNBERRY, Texas                MARTIN HEINRICH, New Mexico
MIKE ROGERS, Alabama                 JOHN R. GARAMENDI, California
JOHN C. FLEMING, M.D., Louisiana     C.A. DUTCH RUPPERSBERGER, Maryland
SCOTT RIGELL, Virginia               BETTY SUTTON, Ohio
AUSTIN SCOTT, Georgia
                 Drew Walter, Professional Staff Member
                Leonor Tomero, Professional Staff Member
                 Alejandra Villarreal, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Friday, October 14, 2011, Nuclear Weapons Modernization in Russia 
  and China: Understanding Impacts to the United States..........     1

Appendix:

Friday, October 14, 2011.........................................    23
                              ----------                              

                        FRIDAY, OCTOBER 14, 2011
   NUCLEAR WEAPONS MODERNIZATION IN RUSSIA AND CHINA: UNDERSTANDING 
                      IMPACTS TO THE UNITED STATES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Sanchez, Hon. Loretta, a Representative from California, Ranking 
  Member, Subcommittee on Strategic Forces.......................     4
Turner, Hon. Michael, a Representative from Ohio, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Fisher, Richard D., Jr., Senior Fellow, International Assessment 
  and Strategy Center............................................     7
Lewis, Dr. Jeffrey, Director, East Asia Nonproliferation Program, 
  James Martin Center for Nonproliferation Studies, Monterey 
  Institute of International Studies.............................     9
Schneider, Dr. Mark B., Senior Analyst, National Institute for 
  Public Policy..................................................     5

                                APPENDIX

Prepared Statements:

    Fisher, Richard D., Jr.......................................    48
    Lewis, Dr. Jeffrey...........................................    73
    Sanchez, Hon. Loretta........................................    31
    Schneider, Dr. Mark B........................................    33
    Turner, Hon. Michael.........................................    27

Documents Submitted for the Record:

    Letter from General Chilton and Admiral Mullen...............    85
    Executive Summary from Study Commissioned by the Defense 
      Threat Reduction Agency....................................    86
    Excerpt Concerning Underground Tunnels from Department of 
      Defense 2011 Report on China...............................    87

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Ms. Sanchez..................................................    96
    Mr. Turner...................................................    91
   NUCLEAR WEAPONS MODERNIZATION IN RUSSIA AND CHINA: UNDERSTANDING 
                      IMPACTS TO THE UNITED STATES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                          Washington, DC, Friday, October 14, 2011.
    The subcommittee met, pursuant to call, at 11:38 a.m., in 
room 2212, Rayburn House Office Building, Hon. Michael Turner 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MICHAEL TURNER, A REPRESENTATIVE FROM 
        OHIO, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Turner. Good morning. I want to welcome everyone to the 
Strategic Forces Subcommittee's hearing on ``Nuclear Weapons 
Modernization in Russia and China: Understanding Impacts to the 
United States.''
    This hearing is very timely because we are currently faced 
with a highly uncertain future regarding our own nuclear 
deterrent modernization program. Despite commitments from many 
key leaders, that modernization of our nuclear weapons 
stockpile, delivery systems, and supporting infrastructure is 
critically needed.
    We are on the verge of halting our modernization program 
before it even begins. The fiscal year 2012 Energy and Water 
appropriation bills currently in Congress would make dramatic 
cuts to nuclear modernization funding levels that were agreed 
to last year by the President and Senate during consideration 
on the New START [Strategic Arms Reduction Treaty] treaty.
    In that context, it is important to understand if and how 
other countries, especially China and Russia, are modernizing 
their nuclear forces and how that modernization should impact 
our decisions here in the United States.
    To help us explore these issues, we have before us several 
distinguished non-governmental experts on nuclear weapons 
program strategies and forces in China and Russia.
    They are Dr. Mark Schneider, Senior Analyst, National 
Institute for Public Policy; Mr. Richard Fisher, Jr., Senior 
Fellow, International Assessment and Strategy Center; and Dr. 
Jeffrey Lewis, Director, East Asia Nonproliferation Program, 
James Martin Center for Nonproliferation Studies, Monterey 
Institute of International Studies.
    Thank you all for joining us today. We appreciate you 
sharing your insights with us. Based upon your written 
statements, you all seem to be in agreement that Russia and 
China are modernizing their nuclear forces.
    Dr. Schneider, you point out that ``Russia is modernizing 
every leg of its nuclear triad with new, more advanced 
systems,'' including new ballistic missile submarines, new 
heavy ICBMs [intercontinental ballistic missiles] carrying up 
to 15 warheads each, new shorter-range ballistic missiles, and 
new low-yield warheads.
    You highlight a series of disturbing statements by senior 
Russian officials regarding how Russia has come to put 
increased emphasis on nuclear weapons in military planning, 
including a possible intention to use nuclear weapons first in 
an attempt to end regional- or even local-level conventional 
wars.
    Dr. Schneider, you also reference information that Russia 
may possibly be violating the Intermediate Nuclear Forces 
Treaty. If true, this is deeply disturbing. I hope you will 
discuss this in the summary of your remarks.
    Mr. Fisher, you point out that China is steadily increasing 
the numbers and capabilities of the ballistic missiles it 
deploys and is upgrading older ICBMs to newer, more advanced 
systems. China also appears to be actively working to develop a 
submarine-based nuclear deterrent force, something it has never 
had.
    Your testimony also highlights reports of a very large 
tunnel system China has constructed. A recent unclassified 
Department of Defense report says that this network of tunnels 
could be in excess of 5,000 kilometers and is used to transport 
nuclear weapons and forces.
    An unclassified study commissioned by the Defense Threat 
Reduction Agency, and conducted by Dr. Phillip Karber out of 
Georgetown, is about to be released, which goes into even 
greater detail on this worrying development.
    As we strive to make our nuclear forces more transparent, 
China is building this underground tunnel system to make its 
nuclear forces even more opaque.
    Dr. Lewis, from your prepared statement, it appears that 
while you agree with your fellow witnesses that China and 
Russia are modernizing, you likely don't agree with them on 
what the implications of that modernization are for the United 
States and for our decisionmaking.
    But you do caution that some of the modernization efforts 
in China and Russia could lead to instability in a crisis. In 
particular, I would appreciate if in your opening statement you 
would touch on the stability implications of deployment of a 
heavy, multiple-warhead, fixed silo-based ICBM in Russia as 
well as China's nuclear force concept of operations--which 
requires arming their delivery systems in a crisis.
    With all of this modernization going on in Russia and 
China--and every other nuclear power--our own nuclear 
modernization program may never get past the ``plan'' stage.
    Last December, President Obama and the Senate agreed to 
robust funding for nuclear modernization efforts. In letters to 
the Senate, President Obama agreed to modernize the strategic 
triad of delivery systems and accelerate key infrastructure 
products at NNSA [National Nuclear Security Administration] 
labs and plants.
    The President also said, ``I recognize that nuclear 
modernization requires investment for the long-term, in 
addition to this one-year budget increase. That is my 
commitment to the Congress--that my Administration will pursue 
these programs and capabilities for as long as I am 
President.''
    The President came through on this pledge in his budget 
request, and then the House supported full funding for NNSA in 
fiscal year 2012 Budget Act and the Fiscal Year 2012 National 
Defense Authorization Act. But now, that commitment is falling 
apart and stalling. The fiscal year 2012 Energy and Water 
appropriations bills would cut NNSA funding by up to 10 percent 
for the budget request and the current continuing resolution 
returns NNSA to 1.5 percent less than fiscal year 2011 levels.
    In the House, 65 Members signed on to a letter--one that 
contains gross inaccuracies about the cost of sustaining and 
modernizing our stockpile--calling for over $200 billion in 
cuts of nuclear weapons funding over 10 years.
    Considering that the budget for sustaining, operating, and 
modernizing our nuclear weapons complex and nuclear forces is 
on the order of $220 billion over the next 10 years, the cuts 
proposed in this letter would amount to unilateral disarmament. 
I was disappointed to see that so many of my colleagues signed 
on to such an irrational proposal.
    But I am thankful that all of my majority colleagues on 
this subcommittee are standing firm for the need for 
modernization. We recently sent a letter to four key Senate 
appropriators, asking them to stand by a written commitment the 
Senators had previously made to the President last December, in 
which they each pledged their ``support for ratification of the 
New START Treaty and full funding for the modernization of 
nuclear weapons arsenal.''
    No less an authority than the Secretary of Defense supports 
fully funding NNSA's nuclear modernization efforts. Just 
yesterday in testimony before our committee, Secretary Panetta 
said he ``certainly would oppose any reductions with regards to 
the funding for nuclear [modernization].'' This is a strong 
statement of support from a Secretary who is under intense 
pressure to cut defense spending.
    Secretary Panetta also said at yesterday's hearing, ``With 
regard to reducing our nuclear arena, I think that this is an 
area where I don't think we ought to do that unilaterally; we 
ought to do that on the basis of negotiations with the Russians 
and others to make sure that we are all walking the same 
path.''
    I couldn't agree more. That is why one of the New START 
Implementation Act provisions contained in the House-passed 
fiscal year 2012 NDAA [National Defense Authorization Act] link 
would ensure that we don't unilaterally reduce, and that any 
further reductions occur in conjunction with a formal treaty or 
an act of Congress.
    Today, we are going to examine nuclear modernization 
efforts in Russia and China. We need to understand what these 
countries are doing, in contrast to what we are doing. Our 
nuclear modernization plans is just that. It is just a plan.
    We are only beginning to embark on it. Meanwhile, these 
other countries continue to advance the capability and 
reliability of their nuclear forces. We need to understand the 
potential long-term consequences of watching as Russia and 
China modernize their nuclear arsenal--while we sit back and 
simply maintain our existing aging nuclear forces.
    With that, let me turn to my ranking member, Ms. Sanchez, 
for her opening statement and appreciate her.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 27.]

   STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE FROM 
  CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Ms. Sanchez. Thank you, Mr. Chairman. I join Chairman 
Turner in welcoming Dr. Schneider, Mr. Fisher, and Dr. Lewis to 
this hearing about the modernization of Russia and China's 
nuclear weapons programs and the impact that it would have, and 
does have, on our nuclear policy and our posture.
    This is an issue, of course, of big interest to the 
subcommittee and this hearing is, I think, very useful as a 
follow-on to the classified briefings that our subcommittee has 
recently received on nuclear weapons programs earlier this 
summer.
    We have been working very hard to get everybody up to speed 
on this committee in an effort to, I think, have as unified a 
voice as we can about the security and issues that we have here 
on this committee.
    I think this is a very valuable opportunity for us to get a 
better understanding of where we believe modernization efforts, 
what direction they are going for both of these countries, the 
different models that are being used to maintain nuclear 
weapons, how these nuclear weapons, the modernization plans, 
add to the capability of Russia and China vis-a-vis our 
capabilities; whether they add to the deterrence in the sense 
of, if you have weapons does that deter others from using them 
and therefore nobody is using them or whether the fact that 
they are modernizing--how that impacts our own arsenal and what 
types of modernization efforts we might consider, considering 
that both the United States and Russia have over 95 percent of 
the nuclear weapons in the world's arsenal.
    Given those efforts, we want to do what is the best 
progress in making the changes that we need for our nuclear 
weapons policy. And in this context I would love to hear your 
views, particularly on how we can most effectively decrease the 
risk that nuclear weapons might be employed as a result of 
accidental or unauthorized launch. That is one of my biggest 
worries with respect to China and Russia. Do they have the 
capability to keep everything in check, even in chaotic times?
    On whether multilateral measures, such as the Comprehensive 
Test Ban Treaty, would help them for nuclear weapons 
modernization, and what must be done to preserve and to 
strengthen our strategic stability vis-a-vis what is going on 
with Russia and China?
    So I thank you for your expertise and our subcommittee 
looks forward to hearing from you.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Sanchez can be found in the 
Appendix on page 31.]
    Mr. Turner. Thank you.
    The subcommittee has received written statements from each 
of the witnesses, and without objection, these statements will 
be made part of the record.
    And now, we will turn to our witnesses and ask each to 
summarize their written statement in about 5 minutes. We will 
then proceed with Member questions.
    We will start with Dr. Schneider.

 STATEMENT OF DR. MARK B. SCHNEIDER, SENIOR ANALYST, NATIONAL 
                  INSTITUTE FOR PUBLIC POLICY

    Dr. Schneider. Thank you, Mr. Chairman, Ranking Minority 
Member Sanchez, and distinguished members of this committee, 
for inviting me to testify. I think this is a very important 
topic, nuclear deterrence. And the success of nuclear 
deterrence is absolutely critical.
    I believe that there is a great deal of similarity between 
Russia and China in terms of the modernization programs and the 
role of nuclear weapons and their strategy. There is very 
little similarity between their views and our views on nuclear 
weapons, and I think that creates a very dangerous situation, 
particularly if we make unilateral cuts in our capabilities.
    The Russians and the Chinese are modernizing every element 
of their strategic triad. There is no debate about that at all. 
You have the older programs which were begun in the 1990s that 
have now reached fruition, that they are either being deployed 
or just about to be deployed. That's the SS-27 and the Bulava-
30 SLBM [submarine-launched ballistic missile] with a new Borei 
class submarine.
    In 2011, the Russians announced a major increase in nuclear 
delivery vehicle capabilities that involves four new or 
modified ICBMs and SLBMs. The most threatening is the new heavy 
ICBM, which is basically a cold war relic, and the main mission 
being counterforce attacks against the U.S. ICBM force.
    The general trend in their capabilities has been going to 
larger numbers of MIRV [multiple independently targetable 
reentry vehicle] weapons, the 10 to 15 you mentioned, Mr. 
Chairman, on the new heavy. And you know, numbers like 12, 10, 
6 on various other missiles. That is a major shift in their 
policy.
    The Chinese are deploying right now two new ICBMs, DF-31 
and DF-31A. They are building a new missile submarine, a new 
ballistic missile, and an improved bomber. The Chinese are much 
more secretive about their plans than the Russians are, and we 
have very incomplete information in many respects on that.
    But certainly there is evidence, particularly in the Asian 
press that they--and there is some confirmation of this in the 
Pentagon report on Chinese military power--that they are going 
to MIRV their ICBM and developing a new MIRV ICBM, referred to 
as DF-41 in the Asian press. And there are reports in the Asian 
press of one, possibly two, MIRV SLBMs. So we are seeing a 
major increase in capability.
    Both Russia and China are increasing. They have announced 
they are actually increasing the number of their nuclear 
weapons. In the case of Russia that is to build up to the New 
START levels, which they are currently below in terms of 
accountable warheads by 2018. However, since New START only 
counts one weapon per bomber, they could be as much as 800 
warheads above the New START limits. They have the countable 
number.
    The Russians and Chinese are developing new types of 
nuclear weapons. There is no dispute. There is no serious 
dispute about the case of Russians. Senior military leaders 
have actually said this on numerous occasions that, as Mr. 
Chairman Turner stated, they are developing low collateral 
damage and precision low-yield nuclear weapons. There are 
multiple sources of information on that.
    And there are reports that both are engaged in very low-
yield nuclear testing. And that makes sense in light of the 
modernization program. Russia has literally thousands of 
nuclear weapons. The Obama administration has acknowledged that 
they have 10 times the number of weapons that we do.
    It is not only the numbers, it is the diversity of the 
weapons. They have capabilities to attack a wide variety of 
targets that we simply do not have the ability to attack, 
because of the unilateral reductions in our--well, not 
unilateral--reductions in our capability over the last 10 or 15 
years.
    Mr. Chairman, the reports of the new prohibited ground 
launch cruise missile are actually pretty common in the Russian 
press. They are concerned in the sense that they could be 
recreating what was supposedly eliminated with the--actually 
was, I believe, at the time--the Zero Option INF [Intermediate-
Range Nuclear Forces] Treaty.
    I debated whether to put this into the statement, because I 
didn't want to distract attention from the broader aspects of 
the Russian programs. This is, I think, a very important thing. 
There are a large number of reports. It comes from people all 
over the political spectrum and in the Russian Federation.
    And I think in light of the number of reports and the 
nature of the people who are making these reports, the 
journalists and the arms control experts, I would take this 
very seriously. And I think it ought to be looked at on a 
serious basis.
    The Russian and Chinese have different--notionally 
different--nuclear doctrines. I think there is more similarity 
between China and Russia than the notional announced doctrines, 
in the sense I do not believe the Chinese ``no first use'' 
policy is real. If you take a very close look at it, it doesn't 
commit them to anything because we were the first to use 
nuclear weapons to end World War II.
    And there are still reports in the Japanese press, the 
Kyodo News Agency, says they have obtained classified Chinese 
documents which talked about adjusting the nuclear use 
threshold and engaging in preemptive nuclear strikes in a 
conventional war.
    Russians are very overtly in that direction. This has been 
stated at the highest level, and in their published military 
doctrine they reserve the right to use nuclear weapons, not 
only in response to nuclear attack or a chemical or biological 
attack, but in conventional warfare under certain conditions.
    This is very disturbing, because they literally 
characterize the first use of nuclear weapons as de-escalation 
of the conflict. That is literally amazing. I mean, I cannot 
imagine anybody really believing that, but that is what they 
say.
    Mr. Turner. Dr. Schneider, I need you to conclude so we can 
move to the other witnesses and then get to questions. If you 
could take just a few moments to conclude your statement?
    Dr. Schneider. Okay, I will try to go very fast.
    The Russians exercise all the time in nuclear escalation 
scenarios in local warfare, and they also do major announced 
strategic nuclear exercises. I believe a lot of this is 
political intimidation. The Russians have engaged in numerous 
types of nuclear threats, including 15, approximately, high-
level nuclear targeting threats.
    They fly bombers into air defense identification zones of 
the U.S., NATO [North Atlantic Treaty Organization] and Japan. 
The most recent one was on Wednesday of this week, where they 
precipitated defensive reactions by three NATO air forces. I 
regard that as beyond the pale.
    [The prepared statement of Dr. Schneider can be found in 
the Appendix on page 33.]
    Mr. Turner. Thank you, Dr. Schneider. As we ask questions, 
perhaps you can embellish with the remainder of your statement.
    Mr. Fisher.

      STATEMENT OF RICHARD D. FISHER, JR., SENIOR FELLOW, 
          INTERNATIONAL ASSESSMENT AND STRATEGY CENTER

    Mr. Fisher. Thank you. Today, to assist this committee's 
deliberations on one of the most vexing challenges to the 
security of the United States: how to assess the future 
strategic nuclear capabilities of the People's Republic of 
China's People's Liberation Army, and how to plan for the U.S. 
strategic capabilities that will ensure deterrence of PRC 
[People's Republic of China] nuclear aggression and coercion 
against the United States, its friends and allies.
    Just as one citizen speaking for myself, I would like to 
thank the chairman and the members of this committee for taking 
the time to explore these issues you have listed for today's 
hearing, as they will have a direct bearing on decisions for 
which there may be little margin for error and will require the 
steady leadership of this committee.
    I am aware that your deliberations are now taking place in 
what could quickly become a dire budgetary environment, which 
has already caused deep bipartisan concern, to include many 
members of this committee, and as seen by the warnings over the 
last several days by Secretary of Defense Panetta.
    There has been speculation in the press of cutbacks in 
strategic systems. However, standing on my nearly two decades 
of research on China's general military trends, and focusing as 
well on its strategic modernization, I would add my voice of 
concern to those who are also raising concern about the 
potential cuts in our strategic capabilities that could follow 
from these widely reported budgetary reductions.
    By way of summarizing my written testimony for which I have 
submitted for the record, I would like to offer five main 
points about China's nuclear and military modernization.
    First, at this time in our relationship with the PRC, and 
perhaps as long as the Chinese Communist Party remains in 
power, it is not the time to be reducing American nuclear and 
conventional deterrent capabilities, especially in Asia.
    As the PRC leadership perceives weakness in the United 
States, it will be emboldened to take risks. The PRC has a 
history of engaging in optional wars, especially if it can 
change its strategic environment at very little cost. We have 
seen this in Vietnam, Korea, against India.
    And it is worth noting that the next leader of the PRC, Xi 
Jinping, for a time worked for a very high office in the PLA 
[People's Liberation Army] Central Military Commission while 
Deng Xiaoping was conducting a very successful war against 
Vietnam in 1979. He saw how to take risks militarily.
    From the Korean Peninsula to the Taiwan Strait, East China 
Sea, South China Sea, its support for nuclear and missile 
technology proliferation, its threatening behavior in the 
commons of cyberspace, space, the United States finds itself in 
some degree of confrontation with China, and sometimes rather 
alone.
    And while we can point to many positive actions and 
indications from the PRC, I do not believe that these include 
agreement on what levels of military transparency can lead to 
confidence, especially confidence regarding nuclear forces. The 
PRC in recent years has rejected real discussions with the 
United States that might lead to nuclear stability. But it is 
also not clear that China's potential demands to agree to 
nuclear stability would be acceptable to the United States.
    My second point is that it would be necessary to hold up 
what is accepted knowledge, what we think we know about PRC 
nuclear policies and strategies, to a much longer history of 
Chinese strategies that venerate deception. Will the PRC always 
have a small force focused on the needs of retaliation? The 
doubts that have already been raised about China's ``no first 
use'' policy. I would agree with that.
    And for a military that is now building toward global power 
projection capabilities--naval, air, airmobile army forces--
what is to say that China will always be satisfied with a 
smallish nuclear force for just retaliation?
    My third point would be that it is important to understand 
the breadth and direction of the PLA's nuclear modernization as 
we try to understand their policies and their build-up. This 
question takes up most of my prepared testimony. At the top of 
my concerns would be how quickly will the PLA start to deploy 
new ICBMs and SLBMs with multiple warheads?
    There is a new large mobile ICBM for which we have had 
public imagery since 2007, but for which the Pentagon has not 
yet publicly identified. My sources suggest that this ICBM 
could carry up to 10 warheads. There is a potential for 
outfitting older DF-5 ICBMs and perhaps future versions of the 
DF-31 and JL-2.
    A second concern would be growth in the PLA's regional 
missile forces. Reports earlier this year indicate that they 
are now developing a new 4,000-kilometer IRBM [intermediate 
range ballistic missile] that could be ready by 2015 to 
supplement the DF-31 or DF-21 MRBM [medium range ballistic 
missile]. And we have seen phenomenal growth in the number of 
land attack cruise missiles.
    My third concern would be to monitor the PLA's progress in 
developing an eventual national missile defense capability and 
expanded space warfare capabilities.
    And my fourth point would be that one crucial difference 
between the challenges of deterring Russia and deterring the 
PRC pertains to the degree that China has abetted the nuclear 
capabilities of North Korea, Iran, Pakistan, helped them to 
become a network of proliferation.
    And these countries with their known relationships to 
terrorist organizations appear to be moving toward an age that 
may include nuclear terrorism. How does the United States--the 
United States, in my opinion, has failed to arrest China's 
support for this network. We may in the not-too-distant future 
be paying a very heavy price.
    And this leads to my fourth and final point, and I will 
conclude. Looking toward the future of the American nuclear 
deterrent posturing capability, looking into this decade and 
beyond, the deterrence challenge from the PRC is not just 
limited to the PRC per se, but should also include a network of 
dictatorships who either currently or imminently could have 
nuclear systems abetted by China.
    How do we convince the Chinese not just to stop abetting 
this network, but to help us roll it back? All of this points 
to me for a requirement for grave caution, especially as this 
committee considers very important questions about funding and 
preserving a nuclear deterrent capability that must be 
preserved.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Fisher can be found in the 
Appendix on page 48.]
    Mr. Turner. Thank you. Dr. Lewis.

      STATEMENT OF DR. JEFFREY LEWIS, DIRECTOR, EAST ASIA 
       NONPROLIFERATION PROGRAM, JAMES MARTIN CENTER FOR 
 NONPROLIFERATION STUDIES, MONTEREY INSTITUTE OF INTERNATIONAL 
                            STUDIES

    Dr. Lewis. Thank you. Well, it should go without saying 
that it is an honor to be here before you today. The place I 
would like to start is by noting that no country has used a 
nuclear weapon in anger since the end of the Second World War, 
and that our overriding interest is in continuing this norm 
against nuclear use.
    With the end of the cold war, I think today the principal 
danger is not a surprise attack or a bolt from the blue by 
Russia or China. Rather, the most plausible route to nuclear 
use is now an accident, an unauthorized use or miscalculation 
in a crisis. It is in the United States interest that we drive 
these risks as low as possible while maintaining our nuclear 
deterrent.
    It is sometimes said that the United States is the only 
country that is not modernizing its nuclear arsenal. I would 
submit that this is not true. In some cases phrases like 
nuclear modernization confuse the modernization of bombers, 
missiles, and submarines with the design of new nuclear 
warheads or new bombs.
    All states with nuclear weapons, including the United 
States, are replacing or modernizing delivery vehicles. The 
U.S. triad of strategic forces, ballistic missile submarines, 
intercontinental ballistic missiles and bombers, I believe 
remains the most professional, most capable, and best funded 
strategic force in the world.
    There are no countries producing ``new'' nuclear warheads 
today, although the United States, Russia, and China continue 
to manufacture nuclear warheads that were designed and tested 
before each signed the Comprehensive Nuclear Test Ban Treaty in 
1996.
    Like the United States, both Russia and China are 
conducting subcritical experiments at their former nuclear test 
sites to support ongoing stockpile stewardship. Preparations 
for subcritical tasks are very difficult to distinguish from 
very low-yield ``hydronuclear tests.'' Russia and China could 
not, however, develop new nuclear weapons with yields that I 
would consider militarily significant without conducting tests 
large enough to be readily detected.
    Overall, I believe the United States is the best equipped 
of the three states to maintain its stockpile of nuclear 
weapons under the current moratorium on explosive nuclear 
testing. There is no one in the United States today who I 
believe would seriously propose swapping our nuclear stockpile 
and our triad of delivery vehicles for those of either Russia 
or China.
    It will not surprise you that I disagree with many of the 
assertions made about the details of Russia and China's 
programs today, but those details are not what is fundamentally 
important given the numbers that we are looking at right now. 
There are no foreseeable scenarios under which either country 
could initiate the use of nuclear weapons against the United 
States, our forces abroad, or allies without suffering 
overwhelming destruction that would outweigh any possible 
gains.
    Deterrence against nuclear attack from Russia and China 
today, I believe, is incredibly strong. There are however, 
however remote, plausible scenarios that may result in the use 
of one or more Russian or Chinese nuclear weapons. These are 
non-deliberate scenarios.
    The most pressing task for the United States is to ensure 
that our nuclear forces, policies, and postures can provide for 
stable deterrence during a serious crisis with either country. 
Russian leaders dating to the Soviet era have been deeply 
concerned about their ability to command their nuclear forces 
during a crisis, and have long feared a decapitating strike by 
the United States.
    However unreasonable, such fears seem to have outlasted the 
cold war. The most well-known case involved a false alarm in 
1995 when Russian officials momentarily mistook a Norwegian 
sounding rocket for an American attack.
    Whether such fears are reasonable or not, they explain a 
series of, I find, otherwise puzzling Russian behaviors. The 
Soviet Union constructed a system called Perimeter, which is 
sometimes called the ``Dead Hand,'' that would ensure Soviet 
nuclear forces could retaliate in the event that their 
leadership had been killed.
    The Russian Federation expressed a very strange concern 
about the possibility that U.S. missile defense interceptors in 
Poland might be fitted with nuclear weapons and used like a 
Pershing II in the cold war. Russian officials also insisted in 
the New START negotiations on a provision prohibiting parties 
from placing offense missiles in missile defense silos. They 
also insisted on a higher number of warheads, but a lower 
number of delivery vehicles.
    Although Russian officials do not say so directly, I think 
these otherwise puzzling actions reveal a continuing worry 
about their ability to command their nuclear forces in a 
crisis. Some of the actions that they may take to ensure their 
ability to retaliate may be deeply dangerous.
    With China, the challenge is somewhat different. Chinese 
leaders appear to keep their limited number of nuclear weapons 
in a state of ``no-alert,'' with the warheads stored 
separately. In a serious crisis, according to some training 
materials for Chinese officers, Beijing intends to place these 
forces on alert as a signal to American policymakers to signal 
their resolve.
    As Beijing deploys new mobile missiles, this may mean 
sending those missiles out into the field and flushing 
ballistic missile submarines into the ocean. It is not clear to 
me how an American President might respond to such a signal, 
especially if the crisis were a serious one. And I would just 
note that the recent history of the U.S.-China crisis 
management is not encouraging in this regard.
    I will just simply close by noting that these challenges 
require not more deterrence, but continued attention from the 
United States to ensure that our overwhelming capacity to deter 
Russia and China is both effective and stable. My 5 minutes are 
up, so let me give you the time you need to find out what you 
want to know.
    [The prepared statement of Dr. Lewis can be found in the 
Appendix on page 73.]
    Mr. Turner. Thank you so much. Dr. Schneider, I want to 
return to the topic in which you were leaving off in your 
opening statement. And I am going to ask you to elaborate on 
the disturbing statements that you were referencing that were 
made by senior Russian officials about their nuclear forces and 
how their nuclear employment policies are changing, and how 
should we view these statements in conjunction with Russia's 
nuclear weapons modernization efforts?
    As you were stating, Russia's military doctrine appears to 
be putting increasing emphasis on nuclear weapons as a means to 
deter, prevent and, disturbingly, as you stated, de-escalate 
conflicts, which as you said makes no sense even in conflicts 
at the regional or local level. Some Russian officials have 
even talked about using nuclear weapons in a preventive or 
preemptive manner in a conventional conflict.
    I would like you to discuss, then, the nexus between what 
you were identifying. What are the implications of this for the 
U.S. and the allies as we provide extended deterrent 
assurances? What does it mean for our policies? What does it 
mean that we should be looking to for capabilities? I know many 
of our NATO partners believe that Russia's shift in policies 
are compensating for deficiencies in its conventional forces.
    And I am pleased to note that in all of your statements, 
every one of you, in indicating that, you know, we have not had 
a nuclear conflict, a nuclear conflict being unlikely when we 
have a strong deterrent. I mean that is really the whole aspect 
of the crux of the hearing is that, you know, we understand 
that nuclear conflict is unlikely if there is strong deterrent.
    So we have to evaluate what are the effects on our 
deterrent, how can it possibly be weakened, what others are 
doing, how does it affect the equation of the effectiveness of 
our deterrent? Your statements about what is occurring, both in 
Russia policies and monetization, affects our policies, and I 
would like you to speak to that for a moment, please, Dr. 
Schneider.
    Dr. Schneider. Thank you.
    The Russian military doctrine and one of the, I think, the 
most dangerous aspects of it is that it was developed by 
Vladimir Putin when he was cabinet secretary, or actually NSC 
[National Security Council], the equivalent to the NSC 
secretary.
    It involves on its face first use of nuclear weapons, in 
effect, preemptive use, in a variety of circumstances that we 
don't believe any Western political leader or any Member of 
Congress would consider using nuclear weapons in local wars, 
things that are relatively inconsequential.
    Yet, Russian nuclear doctrine does that. That was revealed 
by the current secretary of their national security council, 
Mr. Patrushev, actually several times in 2009. The actual 
doctrine, as he described it, goes beyond the published version 
in 2000 or the revised version that was put out in 2010.
    My concern about Russian nuclear doctrine is not that they 
are going to wake up one day and launch a nuclear first strike 
at us. It is that they see nuclear forces and nuclear threats 
as a way of achieving political clout that they cannot achieve 
otherwise because their economy is basically a basket case. 
They have one-tenth of our gross national product. They are not 
a superpower in any sense other than they have a massive 
nuclear capability.
    They have made threats directly relating to U.S. military 
action before. For example, during Operation Iraqi Freedom in 
2003, they staged a major nuclear exercise in the Indian Ocean, 
overt nuclear exercise, where they launch not only nuclear-
capable, exclusively nuclear-armed, cruise missiles. Russian 
press, for example, reported a simulated attack, a nuclear 
attack on Diego Garcia. They announced a cruise missile 
attacks, nuclear-capable cruise missile attacks on an aircraft 
carrier. And there aren't too many aircraft carriers in the 
Indian Ocean other than, at that time, American aircraft 
carriers.
    So this is the linkage of what the Russians are doing and 
their view of their own sort of great power status, which 
really can't be supported by the Russian economy, I think, is 
dangerous. I am afraid that, under some circumstances, they 
could box themselves into a corner, and they consistently 
oppose many U.S. policies. They consistently threaten the use 
of force. Matter of fact, during the week that they invaded 
Georgia, they made a nuclear threat, explicitly nuclear threat, 
against Poland.
    I think this is a very dangerous thing, because the Russian 
military leaders are hearing from their most senior officials 
that it is safe and sensible to talk about nuclear strikes in 
minor conflicts. And there are a number of Russian journalists, 
by the way, who agree with what I am saying right now; 
although, overall, there is very strong support for nuclear 
weapons in Russia.
    Thank you.
    Mr. Turner. Mr. Fisher, I am going to ask you to help us 
understand. Now that we have looked at the basis, China and 
Russia are modernizing. Our modernization program is just a 
plan. It is one that needs funding in order to be executed. We 
have a letter from General Chilton and Admiral Mullen that, you 
know, clearly states the United States is the only nuclear 
weapons state not currently modernizing its nuclear 
capabilities and supporting infrastructure, which we will 
include in the record.
    [The information referred to can be found in the Appendix 
on page 85.]
    Mr. Turner. There are risks associated with that. In a 
prior hearing, I used the example that, you know, I have a 1964 
Cadillac. I love it. I love to drive it. I would not want to 
rely on it. You know, I have modernized my transportation 
equipment, and we similarly have this concern of, we are 
relying on an aging infrastructure at a time when we see those 
that we want deter are modernizing.
    Could you please describe to me, what are some of the risks 
associated with Russia and China continuing to do the research 
developing and deploying new nuclear weapons capabilities while 
we sit back and simply maintain our existing and aging nuclear 
weapons? And you know, this is obviously a very helpful 
perspective as we look to the current process of the fiscal 
year 2012 funding.
    Mr. Fisher.
    Mr. Fisher. Yes. Thank you, Mr. Chairman.
    Concern number one would be that, as we enter or consider 
follow-on reductions in our numbers of nuclear warheads that we 
could, probably in this decade or certainly shortly within the 
next decade, cross a line in which China's rising number of 
delivered deployed warheads could not--perhaps not cross ours 
in number, but rise to a point that when you add the onset of 
ballistic missile defenses and expanded space warfare 
capabilities, would undermine in a very significant way our 
ability to deter Chinese aggression, especially on their 
periphery in Northeast Asia, on the Taiwan Strait.
    Secondly, I am concerned with decisions that we have 
already taken. The decision to retire the tactical nuclear-
armed Tomahawk cruise missile, essentially our only secure 
deterrent delivery vehicle is--that decision taken with very 
little fanfare or argument, to me, was taken in short 
consideration of the degree to which Chinese conventional anti-
aircraft missiles and its modernizing air force is able to 
increasingly threaten our tactical nuclear--airborne tactical 
nuclear delivery that we appear to have decided to rely on.
    My concern is compounded by China's propensity to take 
tactical and strategic advantage when it presents itself and to 
strike with very little warning. The examples of Mao's attack 
during the Korean War; the ability of the Chinese leadership to 
lull the Indian leadership and then attack them; the ability to 
have attacked Vietnam in 1979, when Vietnam was basically 
isolated, and there were--deep military losses, but Deng 
Xiaoping was able to change the strategic environment in Asia 
to his favor.
    My concern is that even a small drawdown in an American 
capability could result in some degree of Chinese temptation 
that we should be working to avoid. Just this past year, or 
early September, we discovered from recovered Libyan government 
documents how China was considering selling $200 million in 
arms to Moammar Gadhafi. What was the process that caused the 
Chinese to even consider this, which, to the surprise of many, 
they even admitted later, after those documents were released?
    Was it because the United States deliberately decided to 
take a backseat in the coalition to support the Libyan rebels? 
For whatever reasons, that contributed to that decision, good 
or bad. There was this potential that we would have paid a real 
price in the terms of a Chinese attempt to extend the regime of 
Moammar Gadhafi.
    Mr. Turner. Mr. Fisher, I appreciate your answer then in 
summation is that deterrence is an equation of which imbalance 
has risk, and I appreciate that.
    Dr. Lewis, in your written statement, you say there are no 
foreseeable scenarios under which either country could initiate 
the use of nuclear weapons against the United States, our 
forces abroad or our allies without suffering overwhelming 
destruction that would outweigh any possible gains. Deterrence 
against deliberate nuclear attack from Russia and China today 
is extremely strong.
    I appreciate that statement because it recognizes really 
what the goals and objectives of this committee has been with 
respect to the issue of deterrence, and that is, you know, 
deterrence is something that is not an inherent capability. It 
is something that arises out of investment and research. 
Deterrent capability of today can decay and age, capabilities 
can be outdated and threats or needs change.
    And in that change, you had--in an article that you had 
written in The Diplomat on September 23, my understanding is 
that you advocate modifying our existing B83 nuclear bomb, 
giving it an earth-penetrating capability, and therefore 
enabling it to hold at risk deeply buried underground 
facilities. Your article, I believe, suggests that the 
capability may be needed to deter North Korea's Kim Jong Il, 
who is building lots of underground facilities.
    In the article, you are essentially putting forth the 
prospect of an existing bomb having a new capability. So when 
we look at modernization, we can look at modernization of 
having existing capabilities conducting a different mission. 
Your article, I believe, says that the B61-11 earth penetrator 
is ill-suited for certain North Korean underground targets that 
we need to hold at risk, and so we need the new capability 
perhaps by the B83.
    This proposition is, in effect, modifying existing warheads 
giving the new capabilities--is, in effect, a modernization 
process, and I would like for you to comment on--because 
obviously, one of the things that we look at in that deterrence 
process is in modernization is what are our new capabilities 
that we need and how do we look at modifying so that we might 
be able to achieve them.
    Dr. Lewis. Let me start by saying I am in no way 
theological about these things. If there is a gap in 
deterrence, I would support filling it. And if things are 
unnecessary, then I would not support funding them.
    In this particular case, this would be a modification of an 
existing weapon need and existing requirement. And so what was 
proposed was for Sandia National Laboratories to do a sled test 
that would indicate whether or not this was a capability that 
would be feasible or not.
    I believe it is entirely consistent with the policy 
outlined in the Obama administration's Nuclear Posture Review 
and if the sled test suggested that would work, that would be 
fine.
    We envisioned that primarily as a North Korea-directed 
issue because there are apparently some targets in North Korea 
that may be difficult to hold at risk. But I think that in 
another context--for example, with Russia and China--such a 
capability would be of relatively little value given the kinds 
of numbers and forces.
    Yes, we wrote that. It is designed to deal with a very 
specific problem in North Korea. I am not sure that that would 
help us much with the problems that I see with China and 
Russia, where I think deterrence is so robust that I am much 
more concerned about how things may go awry in a crisis.
    Mr. Turner. Well, my final question, and then I will be 
turning to my ranking member, and if that doesn't work, would, 
as you just identified the evolving risks associated with then 
what needs to be an evolving deterrent, permit us to build a 
purpose-built weapon that would address that if there is not an 
ability to modify our existing inventories?
    Dr. Lewis. Well, I don't want to speak for my co-author, 
but we agreed that the deterrent benefit one would get from 
something like this would be quite small. We just had a very 
simpleminded view. If there is a target, we should calculate 
the hardness and have something to hold it at risk.
    But we set two red lines for ourselves. One red line was 
that we should not violate the policy against new nuclear 
weapons as outlined in the 2010 Nuclear Posture Review, and I 
believe we have stayed within that; and the second is that we 
would not proceed to explosive testing because I think in 
either case, the deterrent benefit, although real, would 
probably be in those two instances outweighed by the negative 
diplomatic cost of doing so.
    Mr. Turner. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman. Mr. Lewis, it is my 
understanding that when we look at a capability, we look at the 
weapon itself and then we look at the delivery system or the 
conjunction of the two.
    So when I look at modernization, at least when I think of 
it, I think of modernizing both systems. Can you speak to 
whether you--I mean, you alluded earlier in your statement that 
the modernization of our submarine systems or the modernization 
of our other methods of deploying, that we continually 
modernize that.
    Do you think that is enough or do you think we should be 
doing the type of modernizing that China and Russia are doing 
in some cases, and maybe doing even more behind a black 
curtain, let us say?
    Dr. Lewis. Well, let me start by saying I look at the 
problem in exactly the same way that you do. I would not want 
the United States to pursue the modernization path that the 
Chinese and the Russians have had. If we look at the way that 
they handle their nuclear weapons, in Russia you see this very 
clearly.
    Russian nuclear weapons are manufactured with the 
expectation that they will last a very short period of time and 
so they must be continually remanufactured which is, I think, 
not the ideal way to do this; whereas U.S. nuclear weapons were 
made with incredible resiliency and are capable of being life-
extended.
    And so if I have these two paths in front of me, I would 
certainly prefer the way the United States does it. And as I 
said in my statement, I would not swap the forces.
    Ms. Sanchez. And I would ask this of all of you, starting 
with Mr. Lewis and then going down the line--it seems to me 
that if China or Russia were to make a quantum leap, if you 
will, in their nuclear capability aside from the delivery 
system, that we would somehow have to know about it because 
they would have to test it. Otherwise, I would assume--what 
little I know of physics, which I have many years of it by the 
way--but I would assume that they would just have to test it 
somehow, and that there is no way to hide that.
    Is that a false assumption? In what way could they be 
modernizing the actual weapon and not have us realize it or see 
it or hear it, et cetera?
    Dr. Lewis. Yes, ma'am. You are not incorrect at all. I 
included in my testimony a chart prepared by the National 
Academy of Sciences that----
    Ms. Sanchez. Yes, I saw of that.
    Dr. Lewis [continuing]. With the purposes of testing at 
various yields and I think that it is quite clear that neither 
Russia nor China, if they were to conduct tests that they could 
conceal, would be able to use those tests for anything that I 
think would be balance-altering, you know?
    If you look at the examples, there are things, like, one-
point safety tests which, although I don't want the Russians 
and the Chinese testing, I suppose if they are doing it for 
safety, that is certainly better than the alternative.
    What fundamentally we have is, I think, a situation where 
all three states to sign the Comprehensive Nuclear Test Ban 
Treaty, China in particular is very constrained in its ability 
to put multiple warheads on its newest missiles without 
testing.
    And so I have been a very strong supporter of ratifying 
that treaty, which I know was an issue before the Senate, but I 
just believe it is strongly in the United States interest to 
keep Russia and China from being able to test nuclear weapons 
since I believe that under the current moratorium we have a 
significant advantage over them and our ability to maintain and 
whether you call it modernize or modify our existing stockpile.
    Ms. Sanchez. Mr. Fisher, what do you think?
    Mr. Fisher. Congresswoman, my suggestion would be that, in 
regards to China especially, that it is as paramount to have 
all of our ears and eyes open. If there is a way to mask or 
divert attention from a nuclear test event, I would expect the 
Chinese to engage in that practice whether it be somehow 
modifying the sound waves that emerge from a test so that it 
would not appear to be the same kind of vibration that a 
nuclear explosion would yield.
    I agree with Jeffrey that in terms of missile testing, 
especially for multiple warheads or advanced warheads, that 
would be something that we could observe for as long as we had 
the satellites to observe those tests.
    But I think we should also consider that a Chinese standard 
for modernizing a warhead may not be what we would require and 
that it is at least conceivable that a degree of advanced 
computer simulation may suffice in some cases for modification 
of warheads that we might prefer to test.
    Ms. Sanchez. Thank you, Mr. Fisher. Doctor.
    Dr. Schneider. Thank you. I disagree in terms of the impact 
of the nuclear testing constraints on the ability of Russia to 
modernize its forces.
    There is a very substantial literature ranging from high-
level Russian governmental officials who have stated they were 
introducing new nuclear weapons. There is a very extensive 
press coverage of this which goes in more detail than the 
government officials do on exactly what they are doing in 
nuclear weapons modernization.
    There are declassified CIA [Central Intelligence Agency] 
reports that are available on the Internet, fortunately highly 
redacted, but they clearly indicate the Russians are developing 
new low-yield nuclear weapons.
    There is some fairly extensive reporting in the Russian 
press of the conduct of hydronuclear tests. Unfortunately, the 
atomic energy ministry does not share Mr. Lewis' view of the 
value of very low-yield testing, and I quoted that in my 
prepared statement. They think that it is very important to 
weapons development.
    In addition to that, there is evidence, at least some--and 
including a report of the House Intelligence Committee of about 
10 years ago--the Chinese may be testing nuclear weapons at 
very low yields.
    I take these reports with a great deal of credibility 
because, again, you can get on the Internet and you can look at 
the declassified intelligence, mainly CIA reports.
    Ms. Sanchez. But, Doctor, I am really getting to the--I 
understand what you are saying and I don't doubt anything you 
say. What I am asking is--I mean, here are people, CIA people, 
et cetera, who are saying we have seen it, we hear it, it is 
there, they are doing it or what have you. Whether it is in the 
mainstream of belief or not is different, but there is somebody 
spotting what is going on.
    So my question is if they were going to make a fundamental 
difference to their weapon which would exceed our capabilities, 
would not somebody think they saw, think they heard it, think 
they felt it?
    Dr. Schneider. Not necessarily, no.
    Ms. Sanchez. Not necessarily? Do you think they could--is 
that because it is theoretical and they would build it anyway 
and they wouldn't test it or is that because they could test it 
and they could alter so much of the test that none of us could 
see or hear or feel it?
    Dr. Schneider. There are serious limitations on our ability 
to detect nuclear tests. The debate on how high a yield you can 
go without detection is at least 1 to 2 kilotons with 
decoupling, and if you test in salt mines it may be up to 10 
kilotons.
    Even sub-kiloton nuclear tests--and I would suggest the 
committee review the JASON--not only the National Intelligence 
Estimates that was done last year, but even on an unclassified 
basis, the JASON Report of 1995 where they talked about being 
able to do partial boosting at half-kiloton yield and 
extrapolate that to full boosted yield.
    That would allow you to develop dramatically new nuclear 
high-performance nuclear weapons. And I believe you can go way 
above a half-kiloton with little risk of detection if you do 
decoupling or you test in salt mines.
    Ms. Sanchez. Mr. Chairman, if you would allow me just one 
more question of our--I have so many, and I am just really 
trying to get some pearls of wisdom out of these guys.
    What drives and what constrains current Chinese and Russian 
nuclear weapons modernization efforts?
    Dr. Lewis. I believe that the Chinese nuclear program is 
driven by a very straight desire to have the same technological 
capabilities, though not the same numbers, as Russia and the 
United States. So they will try to have at least 1 of whatever 
we might have 1,000 of. And I think further that both Russia 
and China, although this will sound very strange, do 
fundamentally fear the United States would use nuclear weapons 
first.
    And I have spent a lot of time trying to explain to Chinese 
and Russian experts what a crazy view that is. But I think that 
that is the only thing that explains both Russia's very strange 
reliance on this Perimeter system, and the Chinese plan to put 
forces in the field as a kind of signal. So technology, and I 
suppose to some extent, fear.
    Mr. Fisher. Congresswoman, my view is that nuclear weapons 
as well as broader range military modernization we are seeing 
in the PRC stems from the ultimate desire to pursue regime 
survival. In 1989----
    Ms. Sanchez. Mr. Fisher, regime survival or rule of the 
world?
    Mr. Fisher. All of this is designed to promote the survival 
of the Chinese Communist Party-led dictatorship. This is the 
ultimate goal that the PLA serves for the Communist Party. And 
the nuclear weapons modernization is pursued first and foremost 
with that goal in mind.
    In my opinion it will proceed apace, a larger, broader, 
conventional modernization that is designed to increasingly 
advance and defend the interests of the Chinese leadership as 
they seek to defend interests in Asia, beyond the Asian 
periphery, and then globally into the next decade.
    And in my opinion, the size and pace of nuclear 
modernization will be related to the degree to other aspects of 
China's broader conventional modernization.
    Dr. Schneider. Thank you. I think in the case of Russia, 
nuclear weapons are very much a part its self-image as a great 
power. They have very little claim to anything else. That has 
been very explicitly stated by then-President Putin, of course 
future-President Putin, and then-Defense Minister Serdyukov. He 
is now a deputy prime minister and heads up the industrial part 
of their military complex.
    In the case of China, I think nuclear weapons are very much 
part of their striving to obtain superpower status. You don't 
increase your defense budget by double digits for decades, 
which they have done in the past and apparently to do so in the 
future, without having certain ambitions, you know, concerning 
the use of military force.
    And I think nuclear weapons are a part of that. I expect a 
very large increase in Chinese nuclear weapons capability over 
the next two decades. It is going to be slow, but it is going 
to be steady, and in the end it is going to be very big.
    Ms. Sanchez. None of you mentioned constraints. But I will 
just leave that. Maybe you can think about that and----
    Thank you, Mr. Chairman.
    Mr. Turner. Thank you.
    I just want to make one comment as a result of the 
testimony we have been receiving. During design, the expected 
life cycle of our weapons was somewhere between 10 and 15 
years, it is my understanding. And the average age currently of 
our weapons is 26 years. So I think that that helps highlight 
the discussion that we are having here of the issue of the need 
for modernization of exceeding the expected design life cycle.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Excuse me. Thank you all for being here. This is a really 
important discussion. Before I begin my questions, I would like 
to introduce into the record the executive summary from a study 
commissioned by the Defense Threat Reduction Agency. It is a 
comprehensive open-source assessment of the Chinese underground 
tunnel system.
    The full study is due to be released soon, but at the 
request of this subcommittee a preview of the executive 
subcommittee has been provided. And I ask that the executive 
summary be made a part of the record.
    Mr. Turner. Without objection.
    [The information referred to can be found in the Appendix 
on page 86.]
    Mr. Lamborn. And additionally, the Department of Defense's 
2011 report on the Chinese military discusses the troubling 
development of the Chinese underground complex of tunnels. And 
I ask that, too, be made a part of the record.
    Okay, thank you.
    [The information referred to can be found in the Appendix 
on page 87.]
    Mr. Lamborn. Dr. Schneider, in its 2011 annual report on 
military developments in China just entered into the record, 
the DOD [Department of Defense] says that China has constructed 
and continues to expand a complex of underground tunnels, 
perhaps over 5,000 kilometers in length, to enable its nuclear 
forces to transport nuclear weapons undetected and to launch 
from a large number of locations.
    What are the implications of this tunnel complex to the 
United States and our allies?
    Dr. Schneider. It is almost mind-boggling. I knew they use 
what we call hardened deeply buried tunnel facilities to 
protect their strategic forces. But until recently I had no 
idea it was remotely that extensive. It has enormous 
implications in terms of their view toward nuclear warfare, the 
survivability of their systems and their leadership in the 
event of war.
    It is virtually impossible to target anything remotely like 
that, irrespective of how many nuclear weapons you have. And 
that is a concern when you put it in the light of some of the 
more fanatical statements that have been made over the years by 
Chinese generals about the, you know, nuclear warfare.
    Including, you know, statements going back to the Mao era, 
and actually reiterated as recently as 2005 in Beijing about 
losing a few hundred million people being relatively 
insignificant, we will survive, and that sort of that stuff.
    That is really crazy stuff. And you got to deter these 
guys. I very strongly support Mr. Lewis' suggestion of 
modifying the B83 into an earth or rock penetrator. That is a 
very important capability to have, not only for North Korea, 
but for Russia and China as well.
    Thank you.
    Mr. Lamborn. And does this large underground complex make 
verifying the size and structure of China's nuclear forces more 
difficult? And if so, is this a very destabilizing factor?
    Dr. Schneider. Well, yes. I mean, it certainly makes it far 
more difficult. The Chinese are using mobile ICBMs, which are 
inherently very difficult to verify. For example, when we went 
into the INF treaty with Russia, the Reagan administration said 
there was a dispute of several hundred missiles on how many 
intermediate range missiles the Russians actually had. And 
these are the type of mobilized--well, in that case mobile 
IRBM. But the difference between an ICBM and an IRBM is just a 
few meters in canister length. So basically, it is the same 
sort of thing.
    We know a lot less about China overall than we know about 
the Russians in nuclear capability, if for no other reason that 
the Russians talk about it all the time, where the Chinese are 
fairly secretive. I think you can find deliberate leaks by the 
PLA in Hong Kong press. I think they are using that as a 
mechanism of debating some issues that they can't openly debate 
in China. But I suspect we are going to see a very large 
increase in Chinese capability, including extensive MIRVing.
    That is alluded to in the case of the--you know, the 
possibility of that--in the case of the ICBM force in the 
latest version of the Pentagon report on Chinese military 
power. They are talking, I think, very clearly about the VF-21 
program, which I believe Mr. Fisher mentioned previously, has 
the potential for 10 warheads.
    Mr. Lamborn. And with the tunnel complex, they could be 
increasing the size of their stockpile with us not even knowing 
it?
    Dr. Schneider. Yes, obviously; quite frankly, yes. They 
have the resources, they have got the technology. As a matter 
of fact, yesterday I found a very interesting statement by Yuri 
Solomonov, who is the chief Russian ICBM solid fuel designer. 
He once headed up their design bureau, MITT [Moscow Institute 
of Thermal Technology].
    And he said they were 15 years behind the Russians in 
missile technology. Now, 15 years ago this is post-cold war and 
they were introducing the SS-27. That is a very significant 
statement on his part. And he said he expected them to come up 
to 5 to 10 years behind the Russians. That is a very 
significant development.
    Mr. Lamborn. All right. Thank you.
    Mr. Fisher, the Obama administration has made unilateral 
declarations that there are certain conditions under which 
nuclear arms would not be used, conditions that had not been so 
limited previously.
    Have the Russians or the Chinese made any reciprocal 
limiting declarations in response to the Obama concessions?
    Mr. Fisher. Not that I am aware of, sir. The Chinese, who I 
am most familiar with--they have a long history of statements 
about their ``no first use'' policy, and how that is 
understood. And, in turn, doubted because of conflicting 
Chinese statements especially over the last two decades. But I 
am not aware of any specific Chinese statement in response to 
the Obama statement, other than a----
    Mr. Lamborn. Or Russian?
    Mr. Fisher. No.
    Mr. Lamborn. And with the passage of New START, did the 
Chinese react in any way? For instance, have they decelerated 
any of their modernization efforts?
    Mr. Fisher. Not to my knowledge, sir. I think that it 
continues apace. We may see the emergence of a Chinese triad 
within this decade. A new continental range bomber, multiple 
MIRVed missiles, perhaps a follow-on class of SSBN after the 
Type 094, not to mention missile defense advances, advances in 
new IRBMs and in space warfare capabilities.
    Mr. Lamborn. Well, to me the power of example is very 
limited for those who are relying on that. And for Dr. Lewis, 
what is the view of China and Russia to each other as a 
potential nuclear adversary? And are any of their forces or 
defenses dedicated to the other country?
    Dr. Lewis. Yes. Yes, they are quite worried and, one might 
even say, paranoid about one another. A significant percentage 
of the things that the Chinese have done when it comes to 
modernizing their forces seem to be Soviet and then Russia 
oriented. So for example, they spent considerable time making 
sure that their ICBMs, which we often think of as being pointed 
at us, were capable of penetrating the Moscow ABM [anti-
ballistic missile] system. There is a very significant fear 
there that makes it very complicated as we try to engage with 
both countries.
    I will say one other thing, which is the Russians in 
particular are quite taken with this tunneling argument. And it 
just goes to illustrate I think the depth of the mutual 
hostility because I and a colleague have been looking into the 
tunneling issue. And it is very interesting. One of the 
questions we had was where would all the plutonium for the 
warheads have come from? Because they only have the two 
production reactors.
    And it turns out one of the citations, which is in Chinese, 
is a teenage girl's blog, which is in and of itself a 
repetition of an English language Usenet discussion from the 
mid 1990s where a guy posting anonymously because he didn't 
want his wife to know what he was doing just was making up some 
numbers. I think the fact that I hear these numbers repeated by 
Russian experts really just demonstrates the depth of paranoia 
on both sides.
    Mr. Lamborn. And lastly, Mr. Fisher, would you like to 
comment on the Chinese tunnel complex issue?
    Mr. Fisher. Congressman, I share the concern of my 
colleagues very much. The existence of this vast tunnel network 
to me raises the immediate question of, ``Do we really know how 
many missiles do the Chinese have today?'' The normally 
accepted number that goes into the annual Pentagon PLA reports 
of 20 DF-5s strikes me as unrealistic given not only the 
existence of this tunnel complex where they can be hidden, but 
also the fact that production of this missile can easily be 
facilitated by existing space launch vehicle production lines. 
And that these production lines have been churning away since 
the 1980s. I put into my written testimony an illustration of 
what I believe are dismantled DF-5 fuselages on horizontal 
trolleys within one of these tunnel complexes. The image was 
released in 2006 by the Chinese. And it to me just illustrates 
this question very clearly.
    Thank you.
    Mr. Lamborn. Thank you, Mr. Chairman. I yield back.
    Mr. Turner. Well thank you. I want to thank each of our 
witnesses today. As you know, this is part of our overall 
effort to get a grasp of not only the countries that we are 
looking at for our deterrence, but also looking at their 
modernization programs as it affects our policies. This will be 
followed by classified briefings for this committee where we 
can take some of the open source information and correlate to 
what is known by our intelligence gathering. So thank you for 
being here, and we greatly appreciate your efforts and 
diligence on this issue.
    [Whereupon, at 12:53 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                            October 14, 2011

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 14, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T1449.001
    
    [GRAPHIC] [TIFF OMITTED] T1449.002
    
    [GRAPHIC] [TIFF OMITTED] T1449.003
    
    [GRAPHIC] [TIFF OMITTED] T1449.004
    
    [GRAPHIC] [TIFF OMITTED] T1449.005
    
    [GRAPHIC] [TIFF OMITTED] T1449.006
    
    [GRAPHIC] [TIFF OMITTED] T1449.007
    
    [GRAPHIC] [TIFF OMITTED] T1449.008
    
    [GRAPHIC] [TIFF OMITTED] T1449.009
    
    [GRAPHIC] [TIFF OMITTED] T1449.010
    
    [GRAPHIC] [TIFF OMITTED] T1449.011
    
    [GRAPHIC] [TIFF OMITTED] T1449.012
    
    [GRAPHIC] [TIFF OMITTED] T1449.013
    
    [GRAPHIC] [TIFF OMITTED] T1449.014
    
    [GRAPHIC] [TIFF OMITTED] T1449.015
    
    [GRAPHIC] [TIFF OMITTED] T1449.016
    
    [GRAPHIC] [TIFF OMITTED] T1449.017
    
    [GRAPHIC] [TIFF OMITTED] T1449.018
    
    [GRAPHIC] [TIFF OMITTED] T1449.019
    
    [GRAPHIC] [TIFF OMITTED] T1449.020
    
    [GRAPHIC] [TIFF OMITTED] T1449.021
    
    [GRAPHIC] [TIFF OMITTED] T1449.022
    
    [GRAPHIC] [TIFF OMITTED] T1449.023
    
    [GRAPHIC] [TIFF OMITTED] T1449.024
    
    [GRAPHIC] [TIFF OMITTED] T1449.025
    
    [GRAPHIC] [TIFF OMITTED] T1449.026
    
    [GRAPHIC] [TIFF OMITTED] T1449.027
    
    [GRAPHIC] [TIFF OMITTED] T1449.028
    
    [GRAPHIC] [TIFF OMITTED] T1449.029
    
    [GRAPHIC] [TIFF OMITTED] T1449.030
    
    [GRAPHIC] [TIFF OMITTED] T1449.031
    
    [GRAPHIC] [TIFF OMITTED] T1449.032
    
    [GRAPHIC] [TIFF OMITTED] T1449.033
    
    [GRAPHIC] [TIFF OMITTED] T1449.034
    
    [GRAPHIC] [TIFF OMITTED] T1449.035
    
    [GRAPHIC] [TIFF OMITTED] T1449.036
    
    [GRAPHIC] [TIFF OMITTED] T1449.037
    
    [GRAPHIC] [TIFF OMITTED] T1449.038
    
    [GRAPHIC] [TIFF OMITTED] T1449.039
    
    [GRAPHIC] [TIFF OMITTED] T1449.040
    
    [GRAPHIC] [TIFF OMITTED] T1449.041
    
    [GRAPHIC] [TIFF OMITTED] T1449.042
    
    [GRAPHIC] [TIFF OMITTED] T1449.043
    
    [GRAPHIC] [TIFF OMITTED] T1449.044
    
    [GRAPHIC] [TIFF OMITTED] T1449.045
    
    [GRAPHIC] [TIFF OMITTED] T1449.046
    
    [GRAPHIC] [TIFF OMITTED] T1449.047
    
    [GRAPHIC] [TIFF OMITTED] T1449.048
    
    [GRAPHIC] [TIFF OMITTED] T1449.049
    
    [GRAPHIC] [TIFF OMITTED] T1449.050
    
    [GRAPHIC] [TIFF OMITTED] T1449.051
    
    [GRAPHIC] [TIFF OMITTED] T1449.052
    
    [GRAPHIC] [TIFF OMITTED] T1449.053
    
    [GRAPHIC] [TIFF OMITTED] T1449.054
    
    [GRAPHIC] [TIFF OMITTED] T1449.055
    
    [GRAPHIC] [TIFF OMITTED] T1449.056
    



=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            October 14, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T1449.057
    
    .eps[GRAPHIC] [TIFF OMITTED] T1449.058
    
    .eps[GRAPHIC] [TIFF OMITTED] T1449.059
    



=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            October 14, 2011

=======================================================================


                 QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. Your opening statement mentions open source evidence 
that Russia may be in violation of the Intermediate Nuclear Forces 
(INF) Treaty. Please explain the evidence for this, and what the 
implications of this should be for the United States going forward.
    Dr. Schneider. Under the INF Treaty, ground-launched cruise 
missiles with a range of 500-km to 5,500-km are prohibited. To violate 
the INF Treaty, a ground launched cruise missile would merely need to 
have the range potential to fly to such a range. A ballistic missile 
would have to demonstrate a range between 500 and 5,500-km.
    There are a substantial number of Russian press reports that state 
that the R-500, a ground launched cruise missile first tested by Russia 
in 2007 and associated with the nuclear capable Iskander missile 
system, has a range between 1,000 and 3,000-km. Two of these reports 
say that the R-500 is actually a derivative of the Soviet cruise 
missile eliminated by the INF Treaty. One of the reports says that the 
R-500 missile exceeded 500-km in its first flight test. Another 
suggests there is also a second prohibited missile. The journals that 
published these reports are well known (including four in an official 
government news agency), and the authors are well known military 
reporters and arms control experts. These individuals range from pro-
regime to anti-regime. It is also clear that these reports are not 
multiple publications treating a single story because they widely 
separated in time and in some detail.
    One well known Russian journalist reports that Russian surface-to-
air missiles and missile defense interceptors have a secondary surface-
to-surface (SAMs) nuclear attack role. The INF Treaty has an exception 
for air and missile defense interceptors that are used solely for this 
purpose. It does not permit SAMs to have a dual role.
    Since these missiles would be classified as ballistic missiles 
under the Treaty, it requires testing to a prohibited range to violate 
the Treaty.
    It is clear that the Moscow ABM, if the report is true, violated 
the INF Treaty from its entry-into-force and the S-500 air/missile 
defense would violate the Treaty when it is fully tested. Whether the 
S-300 and S-400 surface to air missiles violate the INF Treaty would 
depend upon their testing history.
    These are very serious issues. If these reports are true, Putin's 
Russia has returned to the worst arms control behavior of the Soviet 
Union. Violating the ``zero option'' arms control treaty sends a clear 
message about the danger of the pursuit of ``nuclear zero.'' If these 
reports are true, this is an issue that literally must be resolved by 
Russian resumption of Treaty compliance. If this does not happen, I 
believe the U.S. should withdraw from the INF Treaty.
    Mr. Turner. You mentioned that Russia is developing low-yield, 
precision nuclear weapons. These would appear to be a ``new'' nuclear 
weapon for the Russia arsenal. Does Russia have any policy against 
developing ``new'' nuclear weapons? What are the implications to the 
U.S. and our allies if Russia continues developing these new nuclear 
weapons capabilities while the U.S. simply maintains its current, aging 
nuclear weapons?
    Dr. Schneider. Russian leaders openly and repeatedly say Russia is 
developing and deploying new nuclear weapons, and this is reported in 
the Russian press in more detail. Former Defense Minister Sergei Ivanov 
characterized them as ``unique'' which may be a reference to their low 
collateral damage designs. There are two declassified, if highly 
redacted, CIA reports on the subject of Russian development of low 
yield nuclear weapons. In the words of then-Secretary of Defense Robert 
Gates, ``China and Russia have embarked on an ambitious path to design 
and field new weapons.''
    Russian development efforts, combined with hydronuclear testing, 
places us at a great disadvantage. As then-Secretary of Defense Robert 
Gates observed in 2008, ``At a certain point, it will become impossible 
to keep extending the life of our arsenal, especially in light of our 
testing moratorium. It also makes it harder to reduce existing 
stockpiles, because eventually we won't have as much confidence in the 
efficacy of the weapons we do have. Currently, the United States is the 
only declared nuclear power that is neither modernizing its nuclear 
arsenal nor has the capability to produce a new nuclear warhead . . . 
To be blunt, there is absolutely no way we can maintain a credible 
deterrent and reduce the number of weapons in our stockpile without 
either resorting to testing our stockpile or pursuing a modernization 
program.'' We have done neither.
    We cannot replicate old tested designs exactly. As we correct 
problems in our stockpile, we are making changes. As Secretary Gates 
said in 2008, ``With every adjustment, we move farther away from the 
original design that was successfully tested when the weapon was first 
fielded. Add to this that no weapons in our arsenal have been tested 
since 1992. So the information on which we base our annual 
certification of stockpile grows increasingly dated and incomplete.'' 
We are rapidly losing experienced designers due to aging and 
retirements. There is a potential of a major asymmetry in weapons 
reliability developing due to Russian hydronuclear testing and recent 
design experience.
    Rebuilding our nuclear weapons infrastructure is critically 
important, but we must recognize that this alone does not mean our life 
extended nuclear weapons will actually work. If our primaries do not 
develop sufficient yield, the weapons will be duds.
    The combination of the enormous asymmetry in modernization of our 
delivery systems and the risk of loss of deterrent reliability due to 
lack of testing must increase concerns among our allies, particularly 
in Eastern Europe, who feel threatened by Russia and have been subject 
to direct nuclear targeting threats. The asymmetry in low yield and low 
collateral damage weapons may also increase the risk of Russian use of 
such weapons in a crisis.
    Mr. Turner. Do you believe that the nature, effectiveness, and 
credibility of our extended deterrent relationships with allies are 
affected by nuclear weapons and delivery system modernization efforts 
in Russia and China when compared with our own here in the United 
States?
    Dr. Schneider. Yes. Some of our allies are very concerned about the 
Russian and Chinese threat. Others are concerned about Iranian and 
North Korean nuclear capabilities. They will become increasingly 
concerned as their capabilities increase and the modernization 
asymmetry grows. To characterize the minimal changes we are making in 
our delivery systems as ``modernization'' is not realistic when we are 
not generally enhancing military capabilities which are potential 
adversaries are doing all the time. Irrespective of how reluctant our 
allies are to develop their own nuclear deterrent capabilities, I 
believe at some point they will be tempted to develop nuclear weapons 
due to limitations in our deterrent, extended deterrent and damage 
limiting potential.
    We do not have the right types of nuclear weapons for effective 
extended deterrence and current policy precludes any changes in our 
posture. Our deterrent force is aging and ``modernization'' efforts are 
generally not increasing our military potential. Our potential enemies 
are not doing the same. To quote then-Secretary of Defense Robert 
Gates, ``Currently, the United States is the only declared nuclear 
power that is neither modernizing its nuclear arsenal nor has the 
capability to produce a new nuclear warhead.''
    Mr. Turner. Dr. Lewis said in his opening remarks that in his 
opinion, ``Russia and China could not, however, develop new nuclear 
weapons with yields that I would consider militarily significant 
without conducting tests large enough to be readily detected.'' Do you 
agree that Russia and China cannot conduct militarily significant 
nuclear weapons tests without being detected? What, if anything, do 
open sources indicate China and Russia are doing in the nuclear testing 
arena? Are they complying with the terms of the Comprehensive Test Ban 
Treaty? What are the implications of this to the U.S. and our allies?
    Dr. Schneider. No. There is extensive evidence that both Russia and 
China are deploying new and improved nuclear weapons. Their leaders say 
this. In 2005, Russia's Defense Minister Sergei Ivanov said, ``New 
types of nuclear weapons are already emerging in Russia.'' Colonel 
General Vladimir Verkhovtsev, then-chief of the Defense Ministry's 12th 
Main Directorate which handles Russian nuclear weapons, said Russia is 
deploying ``new nuclear weapon complexes . . . . that possess improved 
specifications and performance characteristics . . .'' (Emphasis 
added). In April 1999, then-Security Council Secretary Vladimir Putin 
said that the three Presidential decrees signed by Yeltsin ``concern 
the development of the whole nuclear weapons complex and the 
endorsement of the concept of the development and use of strategic 
nuclear weapons.'' (Emphasis added). Nikol Voloshin, a senior official 
of the Ministry of Atomic Energy, revealed in June 2001 that work was 
nearing completion on a warhead for the Topol-M (SS-27), while ``At the 
same time modernization is proceeding on the other warheads.'' The SS-
27 warhead is clearly a new design because as Colonel-General Nikolay 
Solovtsov and Lieutenant General Vitaliy Linnik, Head of Armament and 
Deputy Commander of Strategic Missile Troops both have stated, the SS-
27 warhead has an ``enhanced-yield charge'' or ``an increased yield.'' 
To increase the yield of a thermonuclear weapon it is necessary to 
redesign the secondary. Ivanov stated that the SS-27/RS-24 MIRV warhead 
was a ``new warhead'' and that it is the same warhead being used on the 
Bulava 30. In September 2003, Lev Ryabev, Deputy Atomic Energy 
Minister, stated that young Russian scientists are ``doing real 
things'' with the goal of ``keeping and improving of Russia's nuclear 
arsenal.''
    A declassified August 2000 CIA Intelligence Memorandum concluded 
that, ``Judging from Russian writing since 1995 and Moscow's evolving 
nuclear doctrine, new roles are emerging for very-low yield weapons--
including weapons for tailored radiation outputs.'' On April 29, 1999, 
President Yeltsin reportedly ordered Russian development of precision 
low yield nuclear weapons that could be used for strategic or tactical 
nuclear strikes.
    There are multiple Russian press reports which say Russia now has a 
new strategic nuclear warhead in the 100-kiloton/100-kilogram range. 
Some of these and other reports say their best Cold War design was 110-
130-kilogram and yielded 50-75 kilotons. The reports of 100-kg warheads 
are consistent with the throw-weight and nuclear warhead numbers per 
missile declared for the new Bulava 30 SLBM under the START Treaty. Two 
Russian generals have said that Russia increased the yield of the SS-27 
single warhead. The numerous Russian press reports that both the SS-27/
RS-24 and the Bulava 30 will carry 10 warheads would require further 
improvement of Russian yield-to-weight ratios in small and light 
warheads. I have traced the report about the SS-27/RS-24 10 warhead 
capability back to a statement by the Russian Defense Ministry.
    Russian nuclear weapons development has not been limited only to 
increasing yield-to-weight ratios. In November 1997, Viktor Mikhaylov, 
then-Atomic Energy Minister, stated that Russia was working on a weapon 
``which penetrate[s] the ground before exploding. I must say that our 
developments here are at the highest level . . . . Right now we are 
standing firm.'' In December 2002, he stated that, ``The scientists are 
developing a nuclear `scalpel' capable of `surgically removing' and 
destroying very localized targets. The low-yield warhead will be 
surrounded with a superhardened casing which makes it possible to 
penetrate 30-40 meters into rock and destroy a buried target--for 
example, a troop command and control point or a nuclear munitions 
storage facility.''
    There are Russian press reports that say Russia is conducting 
hydronuclear testing. The Russian press reported that President 
Yeltsin's April 29, 1999, decree on nuclear weapons approved 
``hydronuclear field experiments.'' Recent Russian press accounts 
indicate that hydronuclear testing actually began in 1994. In November 
2010, Alexei Fenenko of the Russian National Academy of Scientists 
wrote that over the past 15 years, ``significant progress'' was made in 
hydronuclear testing.
    Hydronuclear tests that are designed to produce measurable nuclear 
yields are inconsistent with a zero-yield CTBT or zero-yield moratorium 
Russia claims to be observing. It is very interesting that then-First 
Deputy Minister for Nuclear Energy Viktor Mikhaylov, on April 29, 1999, 
wrote about the importance of hydronuclear testing to maintaining the 
nuclear arsenal. He stated: ``No state will be able to create nuclear 
weapons for the first time based solely on hydronuclear experiments . . 
. But developed traditional nuclear powers can use hydronuclear 
experiments to perform tasks of improving reliability of their nuclear 
arsenal and effectively steward its operation. All countries indirectly 
gain here inasmuch as the risk of nuclear accidents is lowered. 
Determining the limits of `authorized activity' is no simple process 
and only professionals can direct it correctly.'' In July 2001, 
Mikhaylov said that, ``The fact is that the developed, traditional 
nuclear powers, using hydronuclear experiments, can perform the task of 
improving reliability of the nuclear arsenal and effectively track its 
operation while reducing the risk of possible accident.''
    These official statements clearly suggest that Russia was 
conducting hydronuclear explosions and that Mikhaylov wanted to keep 
this activity under the complete control of the Nuclear Energy Ministry 
for obvious reasons. Why else should Mikhaylov be talking about the 
importance of hydronuclear testing when it was prohibited by the 
Comprehensive Test Ban Treaty and the testing moratorium Russia was 
claiming to observe? Such disregard for political commitments and legal 
obligations would be consistent with past Soviet behavior and the 
Russian actions documented in the Department of State's August 2005 
report on adherence to arms control agreements, which recorded a 
continuing pattern of Russian treaty violations. Such tests would be 
useful for the development of new nuclear weapons.
    Numerous declassified, but unfortunately heavily redacted, Clinton 
administration CIA intelligence reports discussed possible Russian 
nuclear testing and whether it was related to the development of new 
warheads. One declassified CIA report concluded that ``hydronuclear 
(low-yield) experiments . . . are far more useful for Russian weapons 
development'' than subcritical tests. At a minimum, these reports 
indicate that the CIA took this possibility very seriously.
    As stated in my prepared statement, the Russian Atomic Energy 
Ministry has said that hydronuclear testing improves both the 
reliability and safety of nuclear weapons. It also revealed that the 
Soviet Union had conducted 89 atmospheric hydronuclear tests until 
1989. I do not believe we can assume that hydronuclear tests are the 
only thing that the Russians are now doing simply because that is what 
is reported in the Russian press. The verification threshold of the 
CTBT is high enough to permit testing of sufficient yield to develop 
new strategic as well as new tactical nuclear weapons.
    Any covert Russian nuclear testing significantly increases the 
threat to the U.S. and our allies.
    Mr. Turner. Do you believe a potential U.S. minimum deterrence 
posture, whereby we maintain a small number of nuclear warheads and 
threaten retaliation against enemy cities if attacked, is credible? Why 
or why not? How would such a posture by the U.S. affect our extended 
deterrent and efforts to prevent proliferation of nuclear weapons?
    Dr. Schneider. No. As then-Under Secretary of Defense Walter 
Slocombe told the Senate Armed Services Committee in 2000, we do not 
target cities. Even if we changed our policy, I don't believe that 
massively disproportionate threats are an effective deterrent since we 
are likely to be self deterred from such action and our adversaries 
know this.
    Allied governments that are worried about their security will be 
concerned about minimum deterrence because it minimizes deterrent 
credibility, maximizes collateral damage and minimizes damage limiting 
capability. It is impossible to substitute effectively conventional 
capability for nuclear deterrence because of the vulnerability of 
conventional weapons to nuclear EMP and their extremely inadequate 
capability against hard and deeply buried facilities. As Margaret 
Thatcher once observed, every town in France has a monument to the 
failure of conventional deterrence.
    Mr. Turner. The Obama Administration is currently conducting a 90-
day ``NPR Implementation Study,'' which will likely result in changes 
to U.S. nuclear weapon employment guidance. According to senior 
administration officials, including President Obama's National Security 
Advisor, Tom Donilon, it could also set the stage for unilateral 
reductions in U.S. nuclear forces. How would unilateral U.S. reductions 
or changes to the employment guidance be perceived by leaders in Russia 
and China? Do you believe we have sufficiently certain information on 
the nuclear forces and policies of China and Russia to enable 
unilateral U.S. reductions or major shifts in employment policy without 
undue risk?
    Dr. Schneider. I think Russia and China would interpret minimum 
deterrence as enhancing the value of their nuclear capabilities. I 
suspect we would see even more nuclear threats from Russia and China. 
Russia would clearly have nuclear superiority and China would have an 
easier option to achieve it. While there are always limitations in our 
intelligence about Russia and China, I think their basic attitudes 
toward nuclear weapons are clear and minimum deterrence would translate 
into minimum security for the U.S. and our allies.
    Mr. Turner. The open-source information available on Chinese 
nuclear forces, strategy, and production is extremely limited. China 
claims this deliberate ``opaqueness'' and the associated uncertainty is 
needed to ensure the effectiveness and survivability of their so-called 
``minimum deterrence'' force. Our forces are reasonably transparent, 
particularly with President Obama's decision to release numbers on the 
size of our nuclear stockpile and data exchanges related to the New 
START Treaty. a. What is your assessment of China's deliberate policy 
of opaqueness on its nuclear forces? b. If we continue making further 
reductions on the ``path to global zero'', at what point does China's 
opaqueness reach a critical line, where we cannot continue to reduce 
our forces without unacceptable risk? c. What are--or should be--the 
impacts of this opaqueness on the nuclear strategies of the U.S. and 
other countries?
    Mr. Fisher. China has been fairly consistent and consistently 
hypocritical. China bewails the nuclear weapons excesses of the United 
States and Russia but refuses to take even initial steps toward 
transparency for its nuclear forces that could set the stage for 
subsequent dialogue that could lead to stability. China's consistent 
effort to put the burden on others to reduce their nuclear weapons 
certainly raises suspicions about what they are doing for their own 
nuclear capability. Given China's potential to arm new DF-5 versions 
and the ``DF-41'' ICBMs with multiple warheads, it is even more 
important that the U.S. not reduce its nuclear arsenal to pursue some 
ideological ``path to global zero'' that China does not show any sign 
of agreeing with. Reductions already made by the Administration are 
unwise given China's potential to increase its nuclear arsenal and 
further U.S. reductions would only compound this error.
    Mr. Turner. China says that it maintains a minimum deterrence 
posture designed to deter nuclear attacks on its homeland. But China is 
also known to be seeking military capabilities to expand its sphere of 
security influence beyond its borders. Do you believe China will retain 
a minimum deterrence posture towards its nuclear weapons as it seeks a 
greater security role beyond its shores? Under what circumstances might 
it seek to move toward a more aggressive deterrence posture with higher 
numbers of nuclear weapons and delivery systems and higher alert 
levels?
    Mr. Fisher. I believe that it is plausible to expect that as China 
seeks a globally capable conventional military force, it will also seek 
a much larger ``world class'' nuclear force. China will build greater 
numbers of large ICBMs and new SSBNs to deter the U.S., Russia and 
India. China will quietly welcome further U.S. nuclear reductions as 
that will reduce the difference to U.S. force levels, adding its 
ability to deter Washington from defending its interests. I would 
suggest that a Chinese force of 500 defended warheads would 
significantly undermine the U.S. extended nuclear deterrent in the 
minds of our Asian allies. China's nuclear forces will increase further 
should Japan, South Korea, Vietnam or Australia decide to pursue a 
nuclear deterrent.
    In addition, the United States needs to devise its own public 
definition about what comprises a ``minimum'' nuclear deterrent. China 
may have ideas that 200 to 300 warheads could still constitute a 
``minimum'' deterrent compared to the nuclear forces of Russia and the 
United States. But it is not clear that Japan, South Korea, Australia, 
Vietnam and Taiwan, all states with the potential to pursue their own 
nuclear deterrent, will also view such Chinese warhead numbers as a 
``minimum'' level.
    Mr. Turner. Do you believe that the nature, effectiveness, and 
credibility of our extended deterrent relationships with allies are 
affected by nuclear weapons and delivery system modernization efforts 
in Russia and China when compared with our own here in the United 
States?
    Mr. Fisher. Today, based on what is known about China's nuclear 
forces, U.S. extended nuclear deterrence is credible, but not as 
credible as when U.S. naval forces had access to secure submarine 
launched nuclear LACMs. North Korea's reported development of a mobile 
ICBM to complement their mobile IRBMs only increases the need for a 
U.S. secondary or tactical nuclear deterrent in Asia. With the 
retirement of the TLAM-N and the decision to rely on aircraft delivered 
tactical nuclear weapons, this element of the U.S. deterrent is now 
vulnerable to North Korea's and China's expansive air defenses. 
Furthermore, if forced to use ICBMs or SLBMs to counter a North Korean 
long range missile strike, the U.S. increases the risk that China or 
Russia will misinterpret the U.S. move and potentially launch their own 
nuclear missiles. In addition, should the PRC succeed in increasing its 
warhead levels to 500, and a BMD system to defend them, that would 
significantly undermine the credibility of the U.S. extended nuclear 
deterrent in the minds of Allied leaders in Asia.
    Mr. Turner. Dr. Lewis said in his opening remarks that in his 
opinion, ``Russia and China could not, however, develop new nuclear 
weapons with yields that I would consider militarily significant 
without conducting tests large enough to be readily detected.'' Do you 
agree that Russia and China cannot conduct militarily significant 
nuclear weapons tests without being detected? What, if anything, do 
open sources indicate China and Russia are doing in the nuclear testing 
arena? Are they complying with the terms of the Comprehensive Test Ban 
Treaty? What are the implications of this to the U.S. and our allies?
    Mr. Fisher. I believe that measures being taken by the U.S. to use 
advanced computer techniques to help verify or even design new nuclear 
weapons are also techniques being sought by Russia and China. As for 
China, we know little about what passes for sufficient nuclear testing. 
China may accept a lesser degree of testing for a new weapon design.
    Mr. Turner. Do you believe a potential U.S. minimum deterrence 
posture, whereby we maintain a small number of nuclear warheads and 
threaten retaliation against enemy cities if attacked, is credible? Why 
or why not? How would such a posture by the U.S. affect our extended 
deterrent and efforts to prevent proliferation of nuclear weapons?
    Mr. Fisher. I do not believe the U.S. has the option both to pursue 
realistic ``minimum deterrence posture'' and to preserve its security 
and freedom. It can have one, but not the other. China would take a 
U.S. decision to pursue a minimum nuclear deterrent posture as a 
license to invade Taiwan, enforce its territorial claims in the East 
China Sea and impose military control over the South China Sea. Such a 
U.S. decision would also pitch China into an even higher paced general 
military buildup in order to accelerate its quest for global military 
dominance to displace the United States. After doing so China would 
then seek a series of confrontations with Washington to develop a 
system for American subordination to China's dictat.
    Mr. Turner. The Obama Administration is currently conducting a 90-
day ``NPR Implementation Study,'' which will likely result in changes 
to U.S. nuclear weapon employment guidance. According to senior 
administration officials, including President Obama's National Security 
Advisor, Tom Donilon, it could also set the stage for unilateral 
reductions in U.S. nuclear forces. How would unilateral U.S. reductions 
or changes to the employment guidance be perceived by leaders in Russia 
and China? Do you believe we have sufficiently certain information on 
the nuclear forces and policies of China and Russia to enable 
unilateral U.S. reductions or major shifts in employment policy without 
undue risk?
    Mr. Fisher. I do not believe that the U.S. has sufficient 
information about China's nuclear forces to take the decision to pursue 
unilateral nuclear reductions. To pursue new unilateral U.S. warhead 
reductions without verifiable data on China's nuclear order of battle, 
its nuclear modernization plans, its real nuclear doctrine, its plans 
for missile defenses and its plans for outer space warfare, would 
severely damage American national security.
    According to open reports, a new study by Dr. Phil Karber of 
Georgetown University on China's expansive, possible 5,000km long 
network of tunnels, undermines confidence in the open reporting by the 
Department of Defense about China's current nuclear missile numbers. 
While this report does not suggest an actual new estimate, the sheer 
size of the tunnel network devoted to hiding China's nuclear missile 
arsenal strongly suggests Chinese missile numbers may handily exceed 
open DoD estimates. Until such a time that China decides to provide 
verifiable assurance that its missile numbers are close to open U.S. 
estimates, the United States should not be considering further 
unilateral reductions in U.S. warhead numbers.
    Mr. Turner. Russian leaders have been talking about deploying by 
2018 a new, heavy, silo-based intercontinental ballistic missile (ICBM) 
that will carry multiple independently targetable re-entry vehicles 
(i.e., it will be ``MIRV'd''). Some experts indicate this system would 
greatly detract from crisis stability, because its fixed location makes 
it vulnerable and Russian leaders would face a very short ``use-it-or-
lose-it'' decision timeframe. Why is Russia contemplating deploying 
this system? What are the benefits to Russia? What, if anything, should 
be the U.S. response if Russia deploys this system? How should this 
decision by Russia impact U.S. decisions about our nuclear force 
structure and policy?
    Dr. Lewis. Among Russian defense entities, there appears to be a 
debate about the need for new liquid-fueled ballistic missiles. The 
process leading to the award of a contract appears to reflect internal 
politics among Russia's design bureaus more than any specific strategic 
rationale. As such, the long-term commitment of the Russian leadership 
to a new liquid-fueled Heavy ICBM remains uncertain.
    New Russian Heavy ICBMs, if based in vulnerable fixed sites, may 
undermine strategic stability by exacerbating Russian fears about the 
survivability of their forces during a crisis with the United States. 
The United States should seek to prevent or curtail deployment of such 
missiles through arms control negotiations.
    That said, the main Russian concern appears to be the vulnerability 
of its leadership and command and control system to a ``decapitating'' 
first-strike that denies Russia the ability to retaliate against a 
nuclear attack. Managing fear in Moscow about the viability of its 
command and control system remains, in my view, the most important path 
to enhancing strategic stability. The United States should continue to 
invest in command, control and communications capabilities to maximize 
a U.S. President's decision-time in a crisis, as well as continue to 
engage Russian leaders on measures to reassure them that the United 
States does not seek a decapitating first strike against the Russian 
Federation. The United States has never sought such a capability and it 
is not in our interest for Russian leaders to be confused about that 
fact.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SANCHEZ
    Ms. Sanchez. Should U.S. modernization of its nuclear weapons be 
tied to Russian or Chinese modernization? Why/why not? How does the 
effectiveness of Russia and China's nuclear deterrent compare to ours? 
And given what we know of the different models for maintaining nuclear 
weapons, would you trade our nuclear weapons for China's or Russia's?
    Dr. Schneider. Yes, although we should also modernize to deal with 
rogue state threats in the most effective manner. As then-Secretary 
Gates stated in 2008, ``There is no way to ignore efforts by rogue 
states such as North Korea and Iran to develop and deploy nuclear 
weapons or Russian or Chinese strategic modernization programs.''
    Russia already has nuclear superiority due to its 10-to-1 advantage 
in tactical nuclear weapons. As former Under Secretary of Defense 
Ambassador Robert Joseph put it, we are now ``Second to One.'' There is 
no way we can freeze the capability of our strategic missiles at the 
technical level we achieved between 1970 and 1990 without the Russians 
pulling ahead (which seems already to have happened) in most areas, 
with the exception of perhaps SSBN quietness and stealth levels.
    Even without U.S. unilateral cuts, I believe China will gradually 
reduce the gap in numbers and technology and eventually pull ahead, if 
we stand still. There are many reports in the Asian press of Chinese 
plans to MIRV their new strategic missiles extensively, although no 
time frame is given. Despite inferior technology, China now has 
extensive regional missile capability with near precision accuracy. 
This Chinese advantage is going to grow simply because they are 
introducing new and improved missiles and we are doing nothing to 
improve accuracy. The Chinese, according to Aviation Week, are 
developing a 4,000-km range ballistic missile with a nuclear 
capability.
    Russian and Chinese strategic nuclear forces would not be suitable 
for the U.S. We cannot operate mobile ICBMs, build extensive tunnel 
facilities because of their cost, live under their standards of safety 
or match their manpower commitments. It would be useful for the U.S. to 
have elements of their tactical and theater nuclear capability, but it 
would have to be an American version of their capability built to our 
standards.
    Ms. Sanchez. What role, benefits and risks are there for further 
nuclear arms control measures given Russian and Chinese nuclear weapons 
modernization efforts and plans?
    Dr. Schneider. Arms control can only have a positive security 
impact if it is complied with. The Soviet Union/Russia has a poor 
compliance record. The lower we go in nuclear weapons, the greater the 
risk of cheating and the consequences of cheating. New START, with its 
degraded verification regime, is not a good basis for additional arms 
control. We need the restoration of a slightly modified START telemetry 
regime and the restoration of continuous monitoring of mobile ICBM 
production. The New START warhead counting regime needs major surgery 
so that we can accurately count deployed warheads.
    Despite its arms control rhetoric, I see little indication that the 
Obama administration is pressing Russia on future arms control, which 
Russia does not want. Indeed, according to Sergey Karaganov, Dean of 
the Faculty of the Moscow World Economics and Politics at the National 
Research University-Higher School of Economics, ``For the time being, 
in order not to lose what has been achieved, the White House . . . 
refrained from pushing for the beginning of negotiations on reducing 
nonstrategic or tactical nuclear weapons in Europe, in which Russia is 
many times superior in terms of numbers. This is why Moscow does not 
want these negotiations.'' Press reports concerning high level meetings 
in 2011 talk almost completely about the Russian missile defense 
agenda. Obama administration statements concerning future negotiations 
about tactical nuclear weapons do not talk about negotiations any time 
soon. Nor are they talking about fixing the problems with START. They 
generally talk about ``transparency'' rather than ``verification.'' One 
statement by NSC Arms Control Coordinator Dr. Gary Samore sounds like 
they are thinking about transparency rather than limits on tactical 
nuclear weapons.
    Statements by administration officials about unilateral reductions 
make no sense if the administration plans near term arms control 
negotiations concerning its announced agenda--further reductions in 
strategic nuclear forces and limits on tactical nuclear and non-
deployed nuclear weapons of all types. Moreover, there is an obvious 
disconnect between this agenda and the lack of limitations in New START 
on non-deployed mobile ICBMs which is one of the main cheating threats.
    Ms. Sanchez. What impact would the Comprehensive Test Ban Treaty 
(CTBT) have on stemming nuclear weapons modernization, particularly for 
China? And what are Russia and China's positions on the CTBT?
    Dr. Schneider. The CTBT is not impacting Russia or China, both of 
which are extensively modernizing their nuclear forces. There are 
reports that both Russia and China are engaging in hydronuclear 
testing.
    In the 1990s, the Russian Atomic Energy Ministry, in a report in 
which then-Atomic Energy Minister Viktor Mikhaylov personally 
participated in drafting, said that Soviet hydronuclear tests ``played 
an important role in the analysis of the safety and reliability of 
nuclear weapons.'' (Emphasis added).
    The detection threshold for decoupled nuclear tests and tests 
conducted in salt mines is too high to prevent covert testing that can 
allow the development of new advanced nuclear weapons. I would 
recommend that the Committee review the recent NIE on the CTBT and 
compare it in detail to the comparable assessments made in the NIE 
written during the Clinton administration. I would also recommend that 
the Committee obtain classified briefings from the National 
Laboratories concerning what is possible at various testing yields for 
nuclear weapons development.
    A 2002 National Academy of Sciences report concluded that, with a 
fully functional International Monitoring System, ``an underground 
nuclear explosion cannot be confidently hidden if its yield is larger 
than 1 or 2- kt.'' It said that cavity decoupling had achieved a 
signal-reduction factor of 70 in a 400-ton yield. A January 2001 study 
by Dr. William Leith of the U.S. Geological Survey concluded that, ``In 
thick salt deposits and domes, it is feasible to construct cavities of 
sufficient volume and dimensions for full decoupling of an underground 
nuclear explosion larger than 10 kt . . . . Above 10 kt, the resulting 
seismic event . . . might be detected, and located by the fully-
functioning CTBT International Monitoring System (the southern 
hemisphere, this threshold will be higher) . . . . [S]uitably thick 
salt deposits are present in many naturally-seismic regions that are 
also areas of nuclear proliferation concern (e.g., Iran, Iraq, Syria, 
China, Russia) . . .'' Dr. Leith also concluded that: ``At yields less 
than about 1 kt, any country desiring to decrease the seismic signal 
from a small underground nuclear explosion can do so by detonation in a 
deep, moderate-size, elongated cavity mined in high-strength, low 
porosity rock (e.g., granite) or, if available, in salt. The 
construction of such a cavity is not limited by the available mining 
technology, based on numerous examples of underground construction at 
depth, worldwide . . . . With careful site selection, the decoupled 
event would not be large enough to be detected seismically, for broad 
areas of most countries.''
    CTBT verification involves monitoring more than known test sites. A 
September 2001 study by Vitaly V. Adushkin and William Leith reported 
that the Soviet Union conducted 117 nuclear tests outside of nuclear 
weapons test sites. In 1999 Principal Deputy Atomic Energy Minister 
Viktor Mikhaylov revealed that nuclear tests had been conducted in 16 
areas of the U.S.S.R. Indeed in one of these tests, ``Soviet scientists 
set off a nuclear blast in 1979 next to a Ukrainian coal mine, then 
sent thousands of miners back to the shaft a day later without telling 
them,'' and that Soviet ``officials had disguised the incident by 
staging a civil defense drill and evacuating the town's 8,000 
residents, most of whom were miners.'' While Russia could not do this 
today in an inhabited area, Siberia is a very large place and largely 
unpopulated.
    Dr. Paul C. Robinson, then-Director of the Sandia National 
Laboratory (SNL), in 1999 Congressional testimony on the CTBT stated 
that he was ``concerned by the erroneous claims'' that the CTBT 
``prohibits the United States or any other nation from deploying new 
nuclear weapon designs or adapting existing nuclear explosives for new 
warheads.'' The main failure mechanism in a thermonuclear weapon is the 
primary, which if it delivers inadequate yield, will result in a dud. 
Covert nuclear testing undetectable under the CTBT can be used to 
develop and certify new primaries. Even the pro-CTBT 1995 JASON report 
concluded that:

          For the U.S. stockpile, testing under a 500 ton yield limit 
        would allow studies of boost gas ignition and initial burn, 
        which is a critical step in achieving full primary design 
        yield. The primary argument that we heard in support of the 
        importance of such testing by the U.S. is the following: the 
        evidence in several cases and theoretical analyses indicate 
        that results of a sub-kiloton (500 tons) test of a given 
        primary that achieves boost gas ignition and initial burn can 
        be extrapolated to give some confidence in the yield of an 
        identical primary with full boosting. Therefore, if a modified 
        or remanufactured primary is introduced into the stockpile in 
        the future to correct some aging problem, such tests on the 
        modified system would add to confidence that the performance of 
        the new primary is still adequate.

    Much higher yield tests than 500-tons yield can be conducted 
without detection with decoupling, testing outside of known test sites 
or in SALT mines. There is also the possibility of covert tests 
conducted at sea to hide the nationality of the test or in deep space. 
These higher tests would have still greater implications for weapons 
development.
    In October 1999 The New York Times reported that, ``In a new 
assessment of its capabilities, the Central Intelligence Agency has 
concluded that it cannot monitor low-level nuclear tests by Russia 
precisely enough to ensure compliance with the Comprehensive Test Ban 
Treaty . . .'' Senator Richard Lugar (R-IN) concluded that, ``I have 
little confidence that the verification and enforcement provisions will 
dissuade other nations from nuclear testing.'' During the 1999 CTBT 
debate, then-Sandia National Laboratory (SNL) Director Dr. Paul 
Robinson stated that, ``unfortunately, compliance with a strict zero-
yield requirement is unverifiable'' and, ``If the United States 
scrupulously restricts itself to zero yield while other nations may 
conduct experiments up to the threshold of international delectability, 
we will be at an intolerable disadvantage.''
    Russia and China support the CTBT. If they are covertly testing as 
press reports say, it gives them a substantial advantage.
    Ms. Sanchez. Understanding the Chinese and Russian current and 
planned modernization efforts, should the U.S. change its current 
nuclear posture and policy, including numbers and targeting? Why, why 
not?
    Dr. Schneider. I believe we must modernize each leg of the TRIAD. I 
would accelerate efforts to develop the new nuclear cruise missile 
because of the defense penetration and sustainment problems with the 
existing ALCM. I believe that some B-61s should be given glide bomb 
capability to better counter advanced defenses. We need to start work 
on new large solid rocket motors in order not to lose design capability 
and be able to replace our ICBM force in 2030. I would also look at 
ways to upgrade our missile accuracy at modest cost. Creating a sub-
strategic capability for our Minuteman ICBM and Trident II, similar to 
the U.K. sub-strategic Trident capability, is possible at extremely low 
or zero cost if done as part of a life extension program.
    I would not make any unilateral cuts in our nuclear capability. 
Cuts will increase the prospect of China deciding to match us in 
numbers and make the implication of the Russian nuclear advantage 
worse. Indeed, if we are going to attempt to achieve a new arms control 
agreement with Russia, this is the worst possible thing to do from the 
standpoint of negotiating leverage. Russia will see unilateral nuclear 
cuts as enhancing its leverage concerning nuclear threats and they will 
have no incentive to agree to limits on tactical nuclear weapons.
    I would not change existing targeting guidance just for arms 
control purposes. Changes that make sense on their own merits are a 
different issue. I do not support targeting cities simply because it 
takes fewer nuclear weapons to destroy them than our existing targeting 
strategy. I believe targeting cities for the purpose of killing 
civilians is morally bankrupt and inconsistent with humanitarian 
international law.
    Ms. Sanchez. What drives and constrains current Chinese and Russian 
nuclear weapons modernization efforts?
    Dr. Schneider. Russia sees nuclear weapons as central to its 
security because of conventional weakness, the military effectiveness 
of nuclear weapons and it is the only basis for claiming that Russia is 
a great power. I am concerned that Russia views nuclear threats as a 
means of preventing NATO actions like Allied Force in Yugoslavia. It is 
clear that Putin would have reacted very differently to Libya. During 
his first presidency, Putin did not have nuclear superiority. He now 
has it. I am concerned about how he may use it.
    The main constraining force on Russia is lack of an economy that 
can support Soviet style strategic forces. The main constraining force 
on China is inferior technology.
    I believe that China sees nuclear weapons as part of its overall 
deterrence and warfighting capability. This is dangerous because of 
Chinese claims concerning Taiwan and China's declared willingness to 
pay ``any price'' to prevent Taiwanese ``independence.'' This is the 
only international confrontation involving nuclear weapons where a 
nation claims sovereignty over the entire territory of another nation. 
The ``one China'' rhetoric aside, China does not control Taiwan and can 
only do so by military force or the threat of military force. China is 
increasing its military budget more each year than the entire Taiwanese 
military budget. U.S. arms sales policy toward Taiwan, particularly our 
unwillingness to sell the F-16, is making war more likely.
    Ms. Sanchez. How much insight do we have into China's nuclear 
program and what can be done to increase Chinese transparency about its 
nuclear program?
    Dr. Schneider. Not as much as we would like. China is very 
secretive and practices a great deal of deception.
    The principal Chinese nuclear weapons organization, the Chinese 
Academy of Engineering's Institute of Physics, employs 8,500 
professional technical staff members. Yu Min, described by Xinhua as 
the ``architect of the country's first H-bomb,'' claims that China's 
key nuclear capabilities are ``on a par with the United States and the 
former Soviet Union.'' Xue Bencheng, one of the most important 
scientists involved in the development of China's neutron bomb, stated 
that the July 1996 Chinese nuclear test was ``a great spanning leap'' 
because it solved the problem of nuclear weapons miniaturization.
    According to Vyacheslav Baskakov and Aleksandr Gorshkov, Russian 
military journalists: ``Specifically, it [China] will succeed in making 
the shift from its current megaton-class nuclear ordinance to a level 
of hundreds and tens of kilotons, thereby increasing the effectiveness 
of available forces and weapons, flexibility of use in various 
circumstances and combat situations on both a strategic and tactical 
level. For example, it is believed that the yield of the strategic 
nuclear warheads with which Chinese ICBM's are now equipped will 
decrease from 1-4 megatons to 250-650 kilotons each. The yield of 
tactical and operational-tactical nuclear warheads, according to expert 
assessments, will total from 90-100 kilotons each.''
    There are convincing reports that this recent progress has not been 
entirely indigenous. ``For example, the House Select Committee on U.S. 
National Security and Military Commercial Concerns with the People's 
Republic of China, generally known as the Cox Committee, concluded 
that: The People's Republic of China (PRC) has stolen classified 
information on all of the United States' most advanced thermonuclear 
warheads, and several of the associated reentry vehicles. These thefts 
are the result of an intelligence collection program spanning two 
decades, and continuing to the present. The PRC intelligence collection 
program included espionage, review of unclassified publications, and 
extensive interactions with scientists from the Department of Energy's 
national weapons laboratories.''
    A number of heavily redacted CIA intelligence reports on China's 
nuclear weapons testing have been declassified and made public. They 
include details that suggest a broad interest in developing nuclear 
weapons for tactical platforms, modernizing and replacing older warhead 
technologies. One of them states that, ``A nuclear test at Lop Nor in 
1990 may be related to development of a warhead for a Chinese short-
range ballistic missile.'' The National Intelligence Daily (NID) in 
1993 stated that accelerated Chinese testing expected by 1996 may also 
be related to ``tactical systems to be developed in the future.'' In 
September 1995, the NID reported that, ``China could be seeking to 
confirm the reliability of a nuclear artillery shell designed in 
advance of a nuclear test ban'' in order to defend against Russian 
invasion or an amphibious landing. The device may have been a gun 
assembled uranium device. The Chinese nuclear tests in 1993 were driven 
``by its need to modernize its nuclear force, built largely using 1960 
and 1970 technology.'' The NID in 1993 stated that China planned seven 
nuclear tests, including ``testing for new SLBM and ICBMs warheads, by 
1996 . . .'' In June 1994, the NID assessed that China was developing 
new nuclear weapons that ``may use more advanced concepts such as 
aspherical primaries and possibly a type of IHE [Insensitive High 
Explosive].'' In 1995, the NID judged that Chinese testing was also 
aimed at developing ``a cruise missile warhead and may involve safety 
upgrades to existing systems.'' A Chinese nuclear test planned for 1994 
was aimed at ``the completion of warhead development for new 
intercontinental and submarine launched ballistic missiles and the 
development of technologies to enhance confidence in warheads for an 
enduring stockpile under a nuclear test ban.''
    China will not voluntarily agree to transparency measures. Despite 
its propaganda efforts on nuclear weapons, it has avoided arms control 
and transparency. Only intense pressure on China has any chance to 
change this.
    Ms. Sanchez. Has China ever sought parity with the U.S. and Russia? 
Why?
    Dr. Schneider. During the Cold War, China did not have the economic 
or the technical capability to challenge the U.S. or Russia and made no 
effort to do so. Since the end of the Cold War, China has made a major 
effort to expand the quantity and quality of its nuclear forces. China 
can only approach current U.S. levels if it develops advanced delivery 
vehicles and nuclear warheads. To challenge us, China will need MIRV 
warheads. According to the most recent Pentagon report on Chinese 
military power, the PRC may be developing a new road-mobile ICBM, 
``possibly'' capable of carrying a multiple independently targetable 
warhead (MIRV). This is apparently the missile that is referred to as 
the DF-41 in the Asian press. Jane's reports it may carry up to 9-10 
warheads. There are reports in the Asian press that China plans to 
heavily MIRV its SLBMs--as many as 576 warheads on six submarines, 
although no time frame is reported. While the Pentagon report on China 
does not provide unclassified projections of future Chinese nuclear 
capability, the Republican Senators on the Foreign Relations Committee 
in the Committee report on New START estimated that the Chinese nuclear 
force would grow to 500-1,000 weapons in the next decade. In addition 
to strategic systems, China has a variety of medium and intermediate 
range ballistic missiles. Aviation Week reports that China has 
announced that its new 4,000-km range ballistic missile will be nuclear 
capable.
    I believe we will see a gradual buildup of Chinese nuclear weapons 
over the next two decades with the ultimate objective of matching the 
U.S. in nuclear weapons as well as in all military capabilities. They 
have the economic capability to do this and our policy is making it 
easier.
    Ms. Sanchez. What does China's no first-use and alert posture 
maintaining nuclear warheads separated from the delivery vehicles tell 
us about their nuclear policy? Does this matter?
    Dr. Schneider. I do not believe China's ``no first use'' policy is 
real. A careful look at the Chinese wording of China's ``no first use'' 
policy reveals that it commits them to nothing. As former U.S. military 
attache to China, Colonel (ret.) Larry Wortzel has pointed out, ``The 
U.S. has already used nuclear weapons against Japan in August 1945 . . 
. [thus] if China launched a surprise nuclear attack tomorrow, it would 
still not be the first nation to use nuclear weapons.'' The Pentagon 
report on the Chinese military warns that ``there is some ambiguity'' 
over the conditions under which China's No First Use policy would 
apply, ``including whether strikes on what China considers its own 
territory, demonstration strikes, or high altitude bursts would 
constitute a first use.'' I believe this is understated.
    The Japanese Kyodo News Agency revealed that it obtained classified 
Chinese documents which say that China ``will adjust the nuclear threat 
policy if a nuclear missile-possessing country carries out a series of 
air strikes against key strategic targets in our country with 
absolutely superior conventional weapons . . .'' China's U.N. Arms 
Control Ambassador once said that ``no first use'' does not apply to 
Taiwan. Chinese nuclear doctrine has evolved toward ``active defense,'' 
which has a nuclear warfighting component.
    If ``no first use'' is really Chinese government policy, how does 
one explain the fact that over the last decade there have been repeated 
threats from the Chinese military of first use against the United 
States over the Taiwan issue? According to Andrei Chang, founder and 
editor of the Kanwa Defense Review, a Canada-based publication that 
specializes in following Chinese military developments reports that 
``after 1996 China has a number of times attempted to impose nuclear 
deterrence against the U.S. and Taiwan, both strategically and 
tactically.'' Perhaps the most famous recent such threat was made in 
1996 by Lt. General Xion Guangkai, then a deputy chief of the General 
Staff. The general made an implied threat to destroy Los Angeles in the 
event of a conflict over Taiwan. He was also quoted as saying that to 
prevent Taiwanese independence, ``China was prepared to sacrifice 
millions of people, even entire cities in a nuclear exchange.''
    Writing in 2000, academic Ellis Joffe noted that, ``A Chinese 
military publication was more blunt. The United States, it said, will 
not sacrifice 200 million Americans for 20 million Taiwanese . . .'' He 
added, ``They will acknowledge it [the Chinese victory] and withdraw.'' 
Another Chinese military journal reportedly said that China had made 
preparations to ``fight a nuclear war with the United States.'' In 
February 2000, then-Colonel Zhu Chenghu, then-Deputy Chief of the 
Strategic Research Institute of Chinese National Defense University, 
stated that, ``China has the capability to launch a nuclear attack 
against the United States. If the United States tried to interfere in 
our dispute with Taiwan, it would suffer a powerful blow as a result.'' 
In July 2005, Zhu Chenghu, now a Major General and a Dean of the 
National Defense University, at a meeting for reporters sponsored by 
the Chinese Foreign Ministry, threatened the destruction of several 
hundred U.S. cities if the United States used conventional weapons 
against China in response to a Chinese attack on Taiwan. In an August 
2007 interview with Chinese Major General Cai Yuqiu, Vice Principal of 
Nanjing Army Command College, published in Ta Kung Pao, an internet 
version of a PRC-owned daily newspaper, reported that, ``Cai Yuqiu said 
that he really appreciated the four sentence fight principle by Mao 
Zedong, i.e., we will not attack unless we are attacked; if we are 
attacked, we will certainly counter-attack. As to whether we will use 
nuclear weapons first, the above principle can also be followed. If we 
have been repeatedly `attacked,' then there should not be a limit for 
our counter-attack.''
    When China announced its ``no first use doctrine'' in 1964, it 
simultaneously faced tens-of-thousands of nuclear weapons (with little 
hope of reducing the disparity to even one hundred-to-one within the 
foreseeable future) and movement toward a crisis relationship with the 
Soviet Union. The situation is completely different today. Writing in 
January 2005, Colonel Wen Shang-hsien of the Taiwanese military 
reported that after the year 2000 the PRC adopted a nuclear doctrine 
that allowed for a ``a preemptive strike strategy,'' under which the 
PRC would use ``its tactical nuclear weapons in regional wars if 
necessary.''
    Ms. Sanchez. How does the development of a Russian mobile heavy 
mobile ICBM affect strategic stability and our deterrent? And what role 
might U.S. policy and posture play in Russia's decision to develop a 
heavy ICBM with MIRV capability?
    Dr. Schneider. Russia is developing a new heavy ICBM which the 
Russian press says will carry 10 heavy or15 medium sized nuclear 
warheads. It is not a mobile ICBM but rather will be based in 
substantially upgraded silos, protected by active defenses and GPS 
jamming, according to Russian press reports.
    Russia is developing the new heavy ICBM for the same reasons it did 
in the Cold War. The obvious target of the missile is the U.S. ICBM 
force. Russia's upgraded ICBM silos will be more survivable than 
existing Russian ICBM silos. However, the silos will be unlikely to be 
as survivable as the new Russian SS-27 mobile ICBMs. It a very 
important piece of evidence that Russia is planning for a nuclear 
warfighting capability against the U.S.
    Ms. Sanchez. Do you believe Russia will seek to build back up to 
New START levels if the number of their nuclear warheads and delivery 
vehicles fall below New START levels in the next few years?
    Dr. Schneider. Russia was below the New START deployed warhead and 
delivery vehicle limits on the day New START entered into force, 
according to Russia's first New START data declaration. During the New 
START Treaty's ratification, Russian defense minister Anatoliy 
Serdyukov stated three times that Russia was already below the New 
START limits on both deployed nuclear warheads and delivery vehicles 
and intended to build up to them. He said: ``We will meet every 
parameter established by the treaty before 2028, while the warhead 
limits will be met by 2018.'' Russia's first New START data update 
declaration, published by the State Department in October 2011, said 
that they have moved from below the New START warhead limits to above 
them, an overall increase of 29 warheads.
    I believe Russia will make every effort to keep the number of its 
nuclear warheads as high as possible. I do not believe Russian forces 
will ever decline to 1,550 operationally deployed strategic nuclear 
weapons as they were counted in the Moscow Treaty of 2002. Even ITAR-
TASS admits that they can stay several hundred weapons above the New 
START limit because of the bomber weapons counting rule which counts a 
bomber as carrying only one warhead.
    Ms. Sanchez. Should U.S. modernization of its nuclear weapons be 
tied to Russian or Chinese modernization? Why/why not? How does the 
effectiveness of Russia and China's nuclear deterrent compare to ours? 
And given what we know of the different models for maintaining nuclear 
weapons, would you trade our nuclear weapons for China's or Russia's?
    Mr. Fisher. Inasmuch as both Russia and China have opted to deploy 
heavy mobile ICBMs to increase their survivability, I believe it is 
necessary for the United States to increase the survivability of its 
land based ICBM force beyond reliance on hardened silos. Given the near 
certainty that China and Russia are going to deploy new heavy ICBMs 
with multiple warheads, it is imperative for the United States to 
develop a similar new heavy, mobile ICBM. I would not trade U.S. 
weapons for those of China or Russia but I do believe that the U.S. can 
develop and should develop a superior heavy mobile ICBM with adequate 
local active protection systems.
    Ms. Sanchez. What role, benefits and risks are there for further 
nuclear arms control measures given Russian and Chinese nuclear weapons 
modernization efforts and plans?
    Mr. Fisher. Any further U.S. reductions in its nuclear arsenal 
would be most unwise without a verifiable understanding of China's 
current nuclear order of battle, its plans for nuclear modernization, 
its real nuclear doctrine, its plans for missile defenses and its plans 
for outer space warfare.
    Ms. Sanchez. What impact would the Comprehensive Test Ban Treaty 
(CTBT) have on stemming nuclear weapons modernization, particularly for 
China? And what are Russia and China's positions on the CTBT?
    Mr. Fisher. It is my assessment that for any Chinese adherence to a 
CTBT to be credible that the U.S. would have to insist on access to 
known and future discovered Chinese nuclear testing facilities. But as 
I believe that such access will not be granted by China, I therefore 
have little confidence that a CTBT would inhibit China's nuclear 
modernization.
    Ms. Sanchez. Understanding the Chinese and Russian current and 
planned modernization efforts, should the U.S. change its current 
nuclear posture and policy, including numbers and targeting? Why, why 
not?
    Mr. Fisher. Given what I know about China's potential nuclear 
modernization plans, its potential plans for missile defenses and for 
outer space warfare, I would suggest the following: 1) There be no 
further reductions in U.S. nuclear warhead numbers, SSBN deployment 
rates or targeting policies; 2) The U.S. should have the ability to 
increase its warhead numbers very quickly if China's nuclear warhead 
count exceeds 300; 3) The U.S. should develop a new heavy mobile MIRV 
ICBM with active point defenses like rail guns to increase their 
survivability; 4) The U.S. should develop a new SSBN to succeed the 
Ohio class; 5) The U.S. should develop active military space combat 
capabilities to deter China's use of similar capabilities that it is 
developing.
    Ms. Sanchez. What drives and constrains current Chinese and Russian 
nuclear weapons modernization efforts?
    Mr. Fisher. China's nuclear modernization and buildup is driven by 
its desire to become the preeminent global military power during this 
century. This ambition is constrained by the amount of resources that 
China can devote to this goal without increasing domestic stability 
threats to the continuation of the Communist Party dictatorship.
    Ms. Sanchez. How much insight do we have into China's nuclear 
program and what can be done to increase Chinese transparency about its 
nuclear program?
    Mr. Fisher. The United States, as well as the rest of the World, 
has a fundamentally insufficient understanding of China's nuclear 
weapons program, both for the purposes of pursuing a path to strategic 
stability with China, and in comparison to the transparency permitted 
by the United States and Russia. Furthermore, we do not have sufficient 
understanding regarding China's direct and indirect roles in assisting 
the nuclear weapons capabilities of North Korea, Pakistan, Iran and 
China's possible understanding and/or relationship to proxies of these 
countries, like Hezbollah, that could be used to deliver rogue-state 
nuclear weapons. Until China decides that far greater transparency 
about its own nuclear program, or about those nuclear programs that is 
has assisted, is in its national security interest, very little can be 
done save to redouble U.S. espionage and intelligence operations 
targeting China's nuclear weapons sector.
    Ms. Sanchez. Has China ever sought parity with the U.S. and Russia? 
Why?
    Mr. Fisher. China is waiting for the right time to seek nuclear 
superiority over the United States. China is well on its way to 
achieving superiority in conventional weapons over the United States in 
the Asia-Pacific region. The numbers of aircraft carriers, amphibious 
projection ships, combat aircraft, and large transport aircraft that I 
estimate that China is seeking by the 2020s, would require a massive 
shift in U.S. forces to deter a potential conflict--given a likely 
continuation of global U.S. military commitments. In nuclear weapons, 
China does not have to achieve ``parity'' in order to upend the nuclear 
balance. A PLA force of 500 defended nuclear warheads would deeply 
undermine Asian allied confidence in the extended U.S. nuclear 
deterrent.
    Ms. Sanchez. What does China's no first-use and alert posture 
maintaining nuclear warheads separated from the delivery vehicles tell 
us about their nuclear policy? Does this matter?
    Mr. Fisher. It is not clear to me that modern tube-launched and 
stored ICBMs and SLBMs are deployed without their nuclear warheads. 
Constantly unlocking complex seals on these large tubes, needed to 
sustain ``cold launch'' gas pressures, augers against China keeping its 
warheads ``de-mated'' from their DF-21, DF-31, DF-31A and future ``DF-
41'' ICBMs. This is also, of course, impossible to sustain for SLBMs at 
sea. Keeping these newer mobile ICBMs deployed with warheads also 
reduces their response time, both for offensive and defensive 
contingencies. Unless this Committee has access to information that the 
PLA does ``de-mate'' all of its modern solid fueled tube-launched 
nuclear missiles, then I would advise that the U.S. not credit China 
with a ``relaxed'' nuclear posture suggested by this question.
    Ms. Sanchez. How does the development of a Russian mobile heavy 
mobile ICBM affect strategic stability and our deterrent? And what role 
might U.S. policy and posture play in Russia's decision to develop a 
heavy ICBM with MIRV capability?
    Mr. Fisher. I am much more concerned about China's development of a 
new large mobile ICBM that most likely will be MIRV equipped. Given 
China's willingness to release limited imagery regarding this new 
missile, I also find it very unfortunate that the U.S. government has 
not revealed more data concerning this missile. The development of this 
missile could have far more profound effect on U.S. nuclear deterrent 
requirements because China's far greater effort to remain untransparent 
about this program. I would urge this Committee to in turn urge the 
Administration to provide the American people with a far more complete 
warning about this new missile, to the degree that source protection 
permits. As previously stated, I believe the advent of new Russian and 
Chinese large mobile MIRVed ICBMs places great pressure on the U.S. to 
develop its own new modern mobile ICBM that can also be paired with 
active defenses.
    Ms. Sanchez. Do you believe Russia will seek to build back up to 
New START levels if the number of their nuclear warheads and delivery 
vehicles fall below New START levels in the next few years?
    Mr. Fisher. I do not have a sufficient understanding of Russia's 
nuclear plans to give a useful answer.
    Ms. Sanchez. Should U.S. modernization of its nuclear weapons be 
tied to Russian or Chinese modernization? Why/why not? How does the 
effectiveness of Russia and China's nuclear deterrent compare to ours? 
And given what we know of the different models for maintaining nuclear 
weapons, would you trade our nuclear weapons for China's or Russia's? 
[Question #15, for cross-reference--ed.]
    Dr. Lewis. The overall balance of deterrence is not sensitive, in 
my judgment, to the technical details of opposing nuclear forces--
particularly not at current levels in excess of 1,000 deployed nuclear 
warheads, many of which are deployed on submarines that are virtually 
invulnerable today.
    The United States should seek to maintain a secure and credible 
option to respond to a nuclear attack against the United States, our 
forces abroad and our allies and partners. Beyond a basic requirement 
that forces be survivable in large enough numbers to hold at risk those 
targets judged necessary for deterrence, small technical advantages in 
nuclear forces confer no political or strategic advantage. Most 
measures relating to nuclear weapons policy, forces and posture are 
about reassuring ourselves that we have done enough as good stewards of 
our strategic forces. These measures have little or no impact on 
calculations in Moscow or Beijing.
    Although the overall balance among all three forces is very robust, 
I would not trade nuclear forces with any other country. Russian 
leaders appear deeply concerned about the survivability of their 
nuclear forces, a situation that I believe no U.S. President could 
accept. Chinese leaders appear willing to accept levels of numerical 
inferiority that would compromise current approaches to extending 
deterrence to U.S. allies and partners. Moreover, the United States 
retains a more agile and capable industrial base than either country. 
[Answer to question #15, for cross-reference--ed.]
    Ms. Sanchez. What role, benefits and risks are there for further 
nuclear arms control measures given Russian and Chinese nuclear weapons 
modernization efforts and plans?
    Dr. Lewis. During the Cold War, a bipartisan consensus existed on 
the need to drive the Soviet Union toward a more stabilizing nuclear 
weapons posture that did not rely heavily on early use to maintain 
survivability. Today, we lack a consensus about why further arms 
control measures are necessary beyond a reasonable assumption that the 
collapse of this process, along with its verification and transparency 
measures, would undermine strategic stability and U.S. security.
    Russian leaders, as I noted in my testimony, are deeply concerned 
about their ability to command their nuclear forces during a crisis and 
fear a ``decapitating'' first strike by the United States. The United 
States should place particular emphasis on measures that reduce Russian 
fears about the viability of their command and control structure. Long-
standing efforts by the Clinton, Bush and now Obama Administrations to 
establish the Joint Data Exchange Center (now Joint Data Fusion Center) 
to share early warning data with Moscow is one example of a measure 
that might contribute to stability. The United States might also 
negotiate an agreement with Moscow to not place nuclear weapons on 
missile defense interceptors. (The FY2003 National Defense 
Authorization Act prohibits the expenditure of any funds on the 
research, testing or development of nuclear-armed missile defenses.)
    China is currently in the process of adding new solid-fueled 
ballistic missiles to its strategic forces. In a serious crisis, 
according to some training materials for Chinese officers, they intend 
to place these forces on alert to signal their resolve. As new mobile 
missiles have become available, this may mean sending road-mobile 
missiles out into the field and flushing ballistic missile submarines 
(which are not yet armed with operational ballistic missiles) into the 
ocean. The United States and China need urgently to begin strategic 
stability consultations now, rather than during a serious political or 
military crisis.
    Ms. Sanchez. What impact would the Comprehensive Test Ban Treaty 
(CTBT) have on stemming nuclear weapons modernization, particularly for 
China? And what are Russia and China's positions on the CTBT?
    Dr. Lewis. If China were to ratify and observe the terms of the 
CTBT, China would probably be unable to develop new nuclear warhead 
designs small enough to permit placement of multiple warheads on 
China's new solid-fueled ballistic missiles. This would constrain the 
size of China's strategic forces, greatly reducing the potential threat 
to the U.S. and its allies in the region.
    Russia has ratified the CTBT. Russia maintains that it is complying 
with the CTBT, conducting only so-called subcritical nuclear tests at 
Novaya Zemlya, similar to those conducted by the United States at the 
Nevada Test site.
    Chinese officials privately indicate that they will ratify the CTBT 
after the United States does. Chinese officials do not publicly 
describe stockpile stewardship activities, but almost certainly are 
conducting subcritical tests at the Lop Nor test site.
    The United States would likely be able to detect tests above a few 
hundred tons at either the Novaya Zemlya or Lop Nor test sites, ruling 
out most nuclear tests. The current test moratorium ``locks in'' the 
current Russian practice of remanufacturing nuclear weapons as a basis 
stockpile stewardship measure and significantly constrains the ability 
of both Russia and China to modernize their existing nuclear weapons 
designs.
    Ms. Sanchez. Understanding the Chinese and Russian current and 
planned modernization efforts, should the U.S. change its current 
nuclear posture and policy, including numbers and targeting? Why, why 
not?
    Dr. Lewis. Today, nuclear weapons play a smaller role in U.S. and 
allied security than at any time since the end of the Second World War. 
Our challenge is to align our nuclear weapons policies, forces and 
posture with this limited role. Neither Russia nor China are 
modernizing their forces in a way that could, at this time, threaten 
what is an extraordinarily robust balance of terror.
    The overall balance of deterrence is sufficiently strong that the 
United States could further reduce the number of nuclear weapons, 
further relax certain readiness requirements, and further ``scrub'' 
existing target sets with no risk to national security. The United 
States should consider such changes to the extent that they may yield 
cost savings in the current budgetary environment or enhance strategic 
stability.
    Ms. Sanchez. What drives and constrains current Chinese and Russian 
nuclear weapons modernization efforts?
    Dr. Lewis. Russian leaders continue to value maintaining a 
relatively large nuclear arsenal, both as a deterrent against the 
United States and a hedge against the growing military capability of 
China. Russian leaders also appear acutely concerned about the 
vulnerability of their forces, particularly their ability to command 
those forces in a crisis.
    China is continuing on the modernization path established in the 
mid-1980s, replacing existing liquid-fueled ballistic missiles with 
solid-fueled ballistic missiles. China may also modestly expand the 
total number of warheads capable of reaching the United States, 
although large increases in nuclear forces do not appear underway. (At 
the same time, China is rapidly increasing the number of 
conventionally-armed ballistic and cruise missiles.) China is not 
currently developing new nuclear warhead designs. China's modernization 
appears driven by a national commitment to acquire the same types of 
capabilities, albeit in smaller numbers, as those possessed by the 
United States and Russia.
    Ms. Sanchez. In your opinion, what can China or Russia gain by 
performing sub-kiloton testing? How would this impact their 
modernization efforts? How would these tests, especially by Russia, 
impact U.S. deterrent capability?
    Dr. Lewis. I know of no evidence that either Russia or China are 
conducting so-called hydronuclear tests (which produce a small nuclear 
yield and would be prohibited under the Comprehensive Nuclear Test Ban 
Treaty) as opposed to sub-critical tests similar to those conducted by 
the United States (which do not produce a nuclear yield and would not 
be prohibited under the CTBT).
    Neither Russia nor China would be able to develop new thermonuclear 
warhead designs of yields above 1-2 kilotons with only sub-kiloton 
testing. China, in particular, would face difficulty in developing 
warheads that would allow it to place multiple warheads on a mobile 
missiles.
    Overall, clandestine sub-kiloton testing would pose little threat 
to the overall deterrent balance--although the United States should not 
ignore evidence of willfull treaty violations if they should occur. On 
the other hand, the United States should be careful not to make hasty 
accusations that later turn out to be false. For example, the Clinton 
Administration demarched Russia for conducting a clandestine nuclear 
test in August 1997 that later turned out to be an earthquake.
    The United States should seek additional test-site transparency 
measures, principally with Russia, as part of a concerted effort to 
secure ratification in the United States Senate and bring the CTBT into 
force.
    Ms. Sanchez. How much insight do we have into China's nuclear 
program and what can be done to increase Chinese transparency about its 
nuclear program?
    Dr. Lewis. The United States intelligence community appears to have 
reasonably detailed information about Chinese fissile material 
production, ballistic and cruise missile development and force 
structure (bases, brigades, etc.). Declassified U.S. intelligence 
estimates that China maintains a total stockpile of approximately 200-
300 nuclear weapons deployed on ballistic missiles are almost certainly 
accurate to within an order of magnitude. China has hundreds, not 
thousands, of nuclear weapons.
    Moreover, the growing openness of Chinese society has led to an 
explosion of information that can assist in tracking the evolution of 
Chinese strategic forces. Today, the greatest challenge is in sorting 
the enormous ``noise'' produced by the a cacophony of Chinese bloggers, 
hyper-patriots, military buffs and so on who often recycle inaccurate 
or distorted Western information as their own analysis.
    Recent reports that China has more than 3,000 nuclear weapons, 
which appear to be based largely on an anonymous internet posting, 
demonstrate the potential pitfalls in this new era of transparency.
    An important goal of strategic stability consultations should be 
specific measures to enhance transparency relating to China's force 
structure and modernization programs.
    Ms. Sanchez. Has China ever sought parity with the U.S. and Russia? 
Why?
    Dr. Lewis. No, Chinese leaders have never sought numerical parity 
in nuclear weapons or delivery vehicles with either U.S. or Russian 
strategic forces.
    Chinese leaders view technological milestones, not force levels, as 
the important feature in the nuclear balance, which they regard as 
extraordinarily robust. Chinese leaders would prefer, for example, to 
have a smaller number of modern missiles and warheads than an 
equivalent number of inferior strategic forces.
    This reflects a ``possession'' mentality where Chinese leaders view 
seek the same capabilities as other nuclear-weapons states, even if 
they chose to deploy only small numbers or, in the case of enhanced 
radiation warheads, none at all. Similarly, this emphasis on matching 
the capabilities of other powers is evident in Chinese efforts to 
develop a ``hit-to-kill'' system similar to the U.S. missile defense 
programs.
    Ms. Sanchez. What does China's no first-use and alert posture 
maintaining nuclear warheads separated from the delivery vehicles tell 
us about their nuclear policy? Does this matter?
    Dr. Lewis. China maintains a very unusual nuclear posture--it 
maintains a small nuclear force based largely on land-based ballistic 
missiles kept off alert and with the most restrictive employment 
guidance (a ``no first use'' policy). Chinese military textbooks and 
exercises suggest that Chinese leaders plan to ``ride out'' a nuclear 
attack before ordering a retaliatory strike.
    There are bureaucratic, historical and cultural reasons for this 
unusual decision. The simplest explanation is that, unlike Western 
policymakers, Chinese leaders believe deterrence is not difficult to 
achieve or maintain. As a result, Chinese leaders have endured a level 
of vulnerability that neither Washington nor Moscow would accept.
    Many American analysts have difficulty accepting that China would 
willingly choose such a deterrent. They deny that Chinese leaders 
really have a ``no first use'' policy or argue that there must be 
thousands more nuclear weapons hidden somewhere. In fact, Chinese 
leaders simply think differently about nuclear weapons than their 
American counterparts.
    Radically different Chinese and American views about nuclear 
weapons complicate strategic dialogue between officials from the two 
countries and, in a crisis, might undermine strategic stability by 
reinforcing mutual suspicions. Although leaders from both countries 
generally acknowledge the need for strategic dialogue and have 
attempted to establish various fora, the overall level of communication 
and understanding between the two remains dangerously inadequate.
    Ms. Sanchez. How does the development of a Russian mobile heavy 
mobile ICBM affect strategic stability and our deterrent? And what role 
might U.S. policy and posture play in Russia's decision to develop a 
heavy ICBM with MIRV capability?
    Dr. Lewis. See Question 15 [answer at top of page 104].
    Ms. Sanchez. Do you believe Russia will seek to build back up to 
New START levels if the number of their nuclear warheads and delivery 
vehicles fall below New START levels in the next few years?
    Dr. Lewis. Russia will be able to maintain the full number of 
treaty-permitted delivery vehicles under the New START Treaty, unless 
it retains large numbers of obsolete and vulnerable systems. A 
reasonable projection for modern delivery vehicles in the coming years 
is approximately 500.
    Russia will, on the other hand, attempt to maintain the full 1550 
deployed nuclear warheads. Russia's decision to continue the extensive 
use of multiple warheads on ballistic missiles may undermine strategic 
stability.
    As a result, the New START Treaty made important progress in 
driving Russia toward a more stabilizing force posture, but additional 
agreements would be necessary to further reduce the dangers to the 
United States. In particular, the United States should seek to 
resurrect the ban on multiple warheads for land-based ballistic 
missiles that was lost with the START II Treaty, even at the cost of 
further reductions in the number of treaty-accountable delivery 
vehicles.

                                  <all>

</pre></body></html>
